<html>
<title> - THE FEDERAL COLUMBIA RIVER POWER SYSTEM: THE ECONOMIC LIFEBLOOD AND WAY OF LIFE FOR THE PACIFIC NORTHWEST</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
 THE FEDERAL COLUMBIA RIVER POWER SYSTEM: THE ECONOMIC LIFEBLOOD AND 
                 WAY OF LIFE FOR THE PACIFIC NORTHWEST

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

            Monday, September 10, 2018, in Pasco, Washington

                               __________

                           Serial No. 115-53

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
                         _________ 

               U.S. GOVERNMENT PUBLISHING OFFICE
                   
31-587 PDF           WASHINGTON : 2018                


          
          
          
               COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  Colleen Hanabusa, HI
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Darren Soto, FL
Paul Cook, CA                        A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Garret Graves, LA                    Wm. Lacy Clay, MO
Jody B. Hice, GA                     Jimmy Gomez, CA
Aumua Amata Coleman Radewagen, AS    Nydia M. Velazquez, NY
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
John R. Curtis, UT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Monday, September 10, 2018.......................     1

Statement of Members:
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     3
    McMorris Rodgers, Hon. Cathy, a Representative in Congress 
      from the State of Washington...............................     5
    Newhouse, Hon. Dan, a Representative in Congress from the 
      State of Washington........................................     3

Statement of Witnesses:
    Flores, Terry, Executive Director, Northwest RiverPartners, 
      Portland, Oregon...........................................    14
        Prepared statement of....................................    16
    Green, Marci, President, Washington Association of Wheat 
      Growers, Ritzville, Washington.............................    45
        Prepared statement of....................................    46
    Hastings, Hon. Doc, a Former Representative in Congress, 
      Pasco, Washington..........................................     8
        Prepared statement of....................................     9
    Heffling Jack, President, United Power Trades Organization, 
      West Richland, Washington..................................    39
        Prepared statement of....................................    40
    James, Daniel, Deputy Administrator, Bonneville Power 
      Administration, Portland, Oregon...........................    11
        Prepared statement of....................................    12
    Johnson, Kris, President & CEO, Association of Washington 
      Business, Olympia, Washington..............................    19
        Prepared statement of....................................    21

    Oatman, Hon. McCoy, Vice Chairman, Nez Perce Tribe, Lapwai, 
      Idaho......................................................    35
        Prepared statement of....................................    37
    Rich, Rob, Vice President, Marine Services, Shaver 
      Transportation Company, Portland, Oregon...................    32
        Prepared statement of....................................    34
    Spain, Glen, Northwest Regional Director, Pacific Coast 
      Federation of Fishermen's Associations, Eugene, Oregon.....    22
        Prepared statement of....................................    24

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    62
                                     



OVERSIGHT FIELD HEARING ON THE FEDERAL COLUMBIA RIVER POWER SYSTEM: THE 
      ECONOMIC LIFEBLOOD AND WAY OF LIFE FOR THE PACIFIC NORTHWEST

                              ----------                              


                       Monday, September 10, 2018

                     U.S. House of Representatives

                     Committee on Natural Resources

                           Pasco, Washington

                              ----------                              

    The Committee met, pursuant to call, at 10:01 a.m., at 
Pasco City Hall Council Chambers, Pasco, Washington, Hon. Doug 
Lamborn presiding.
    Present: Representative Lamborn.
    Also present: Representatives Cathy McMorris Rodgers and 
Dan Newhouse.

    Mr. Lamborn. The hearing will come to order. The House 
Natural Resources Committee meets today to hear testimony on an 
oversight hearing entitled ``The Federal Columbia River Power 
System: The Economic Lifeblood and Way of Life for the Pacific 
Northwest.''
    By way of introduction, I am Doug Lamborn, the Chairman of 
the House Natural Resources Committee's Subcommittee on Water, 
Power and Oceans. I also represent the 5th District of 
Colorado.
    I am grateful to be joined by two former members of the 
Committee who represent this region and are extremely familiar 
with these issues, Representatives Dan Newhouse and Cathy 
McMorris Rodgers, both from Washington.
    To begin today's hearing, I will now defer to my 
distinguished colleague, Dan Newhouse, who represents Tri-
Cities, for a brief statement and a few introductions.

    Mr. Newhouse. Good morning. I want to say welcome to 
central Washington, particularly to Chairman Lamborn and to 
Congresswoman McMorris Rodgers. Thank you.
    It is truly a beautiful day here in the Tri-Cities in 
Pasco, Washington. I am very proud that this is my district, 
the 4th Congressional District. I am also very happy to see so 
many members of the community here who are truly engaged in a 
very, very important issue not only for our community but for 
our state, really for the whole Pacific Northwest, and I would 
even venture to say for our Nation.
    As you know, many of you were with us outside just before 
the hearing began. A lot of community members besides 
yourselves were together, and we were serenaded by a group of 
young members of our community. You probably know this, but it 
was the state folk song, Washington State's folk song, that 
Woody Guthrie gem, ``Roll On, Columbia.'' And what a perfect, 
perfect song for today's hearing, a great way to kick off the 
morning's proceedings as well.
    So, I simply want to say thank you, Mr. Lamborn, Mr. 
Chairman, for being here today, agreeing to chair and host this 
important meeting.
    And now, since this is an official congressional hearing, 
we are going to begin, as we do every session of the House of 
Representatives, with a prayer and a posting of the Colors and 
the Pledge of Allegiance.
    First I would like to recognize Mr. Wes Hershberger of the 
Grandview Church of the Nazarene to lead us in prayer.
    Pastor.
    [Prayer.]
    Mr. Newhouse. If you will remain standing, I am now proud 
to recognize Pasco Boy Scout Troop 159 to post the Colors and 
to lead us in the Pledge of Allegiance.
    [Colors.]
    [Pledge of Allegiance.]

    Mr. Lamborn. Thank you, Representative Newhouse.
    We will now begin with brief opening statements, as is our 
tradition, starting with myself.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. The Committee meets today to conduct an 
oversight hearing entitled ``The Federal Columbia River Power 
System: The Economic Lifeblood and Way of Life for the Pacific 
Northwest.''
    What often gets lost in the conversations inside the 
Beltway is the impact that this Federal infrastructure has on 
the lives of real people and the immense value the Federal 
Columbia River Power System creates for the region.
    Only since the early 1990s has the system become a partisan 
issue. The construction of Bonneville and Grand Coulee Dams was 
a centerpiece of President Franklin Roosevelt's ``New Deal.'' 
When President Roosevelt dedicated the Bonneville Dam in 
September 1937, he stated that, ``in the construction of this 
dam we have had our eyes on the future of the Nation. Its cost 
will be returned to the people of the United States many times 
over in the improvement of navigation and transportation, the 
cheapening of electric power, and the distribution of this 
power to hundreds of small communities within a great radius. 
As I look upon Bonneville Dam today, I cannot help the thought 
that [. . .] we in America are wiser in using our wealth on 
projects like this which will give us more wealth, better 
living, and greater happiness for our children.''
    Eleven years later, speaking about the role that 
hydroelectric dams in the Pacific Northwest played in the 
United States' War World II efforts, Republican President Harry 
Truman stated that, ``had we not had that power source, it 
would have been almost impossible to win this war.''
    From the days of early settlers in the region, to the 
exploration of Lewis and Clark, through World War II, and into 
the modern day, the story of the Pacific Northwest and the 
Columbia-Snake River System is uniquely American. Those of us 
in Congress owe it to you all here today to make good on the 
promises of the past and to do everything we can to protect 
this critical infrastructure that makes possible the way of 
life in the Pacific Northwest.
    Before I conclude my statement, I want to give a special 
thanks to Representatives Dan Newhouse and Cathy McMorris 
Rodgers, who have been passionate and effective advocates for 
you back in Washington, DC. They work tirelessly to defend your 
livelihoods and the critical infrastructure that promotes a 
strong regional economy and way of life.
    In fact, we are having this hearing today at their urging 
so Congress can be better informed on the critical issues 
facing the Pacific Northwest.
    I also want to thank our witnesses here, all nine of them, 
for taking time out of their busy schedules to be here with us 
today. I look forward to your testimony on all sides of the 
critical issues facing the Federal Columbia River Power System.

    [The prepared statement of Mr. Lamborn follows:]
   Prepared Statement of the Hon. Doug Lamborn, a Representative in 
                  Congress from the State of Colorado
    The Committee meets today to conduct an oversight hearing entitled 
``The Federal Columbia River Power System: The Economic Lifeblood and 
Way of Life for the Pacific Northwest.''
    What often gets lost in the conversations inside the beltway is the 
impact that this Federal infrastructure has on the lives of real people 
and the immense value the Federal Columbia River Power System creates 
for the region.
    Only since the early 1990s has the System become a partisan issue. 
Construction of Bonneville and Grand Coulee Dams was a centerpiece of 
President Franklin Roosevelt's ``New Deal.'' When President Roosevelt 
dedicated the Bonneville Dam in September 1937, he stated that ``in the 
construction of this dam we have had our eyes on the future of the 
Nation. Its cost will be returned to the people of the United States 
many times over in the improvement of navigation and transportation, 
the cheapening of electric power, and the distribution of this power to 
hundreds of small communities within a great radius. As I look upon 
Bonneville Dam today, I cannot help the thought that . . . we in 
America are wiser in using our wealth on projects like this which will 
give us more wealth, better living and greater happiness for our 
children.''
    Eleven years later, speaking about the role that hydroelectric dams 
in the Pacific Northwest played in the United States' World War II 
efforts, Republican President Harry Truman stated that ``had we not had 
that power source, it would have been almost impossible to win this 
war.''
    From the days of early settlers in the region to the exploration of 
Lewis and Clark through World War II and into the modern day, the story 
of the Pacific Northwest and the Columbia-Snake River System is 
uniquely American. Those of us in Congress owe it to you all here today 
to make good on the promises of the past and do everything we can to 
protect this critical infrastructure that makes possible the way of 
life in the Pacific Northwest.
    Before I conclude my statement, I want to give a special thanks to 
Representatives Newhouse and McMorris Rodgers who have been fierce 
advocates for you back in Washington, DC. They work tirelessly to 
defend your livelihoods and the critical infrastructure that promotes a 
strong regional economy.

                                 ______
                                 

    Mr. Lamborn. I now recognize, because we are in his 
district, Representative Dan Newhouse, for his opening 
statement.

    STATEMENT OF THE HON. DAN NEWHOUSE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Newhouse. Thank you, Chairman Lamborn.
    Again, thank you to all of you who are here today.
    Over the past few days, members of our community from 
throughout central and eastern Washington gathered to 
participate in what we call the ``RiverFest: Our Rivers, Our 
Way of Life.'' It has been an important opportunity to 
celebrate all the benefits our communities receive from the 
Snake and Columbia Rivers, as well as to educate the general 
public on all of these benefits.
    This past Saturday, I, along with thousands of community 
members, visited dozens of booths and exhibits with community 
partners and organizations highlighting all of the gifts that 
our rivers provide. I requested this hearing of the House 
Natural Resources Committee, to coincide with these community 
events, because I believe it is important that Congress is 
educated about how vital our Federal River Power System is to 
the Pacific Northwest.
    The Columbia and Snake Rivers and the Federal Columbia 
River Power System provide irrigation for Washington's 
agricultural industry, navigational routes for our export-
driven economy, and flood control for our local communities. 
The system provides clean, renewable, affordable power, and 
provides for thriving recreational, manufacturing, and 
technology industries. These rivers truly are the economic 
lifeblood of the Pacific Northwest.
    Unfortunately, in my opinion, misguided movements continue 
to push for the destruction or the degradation of our river 
power system. Along with my colleague, Representative McMorris 
Rodgers, and other Pacific Northwest bipartisan colleagues, I 
have been working on legislative efforts to protect this system 
and our hydroelectric dams.
    As you know, a single Federal judge in 2016 overturned the 
plan which governs the operations and salmon protection 
management plans for the river system. This plan was the 
product of painstaking negotiations conducted by both the Bush 
and the Obama administrations, scientists and engineering 
experts at Federal agencies in affected states, as well as 
sovereign Northwest tribes and many local stakeholders.
    The judge not only mandated that the breaching of the dams 
be considered as an option, but he has even stepped in to over-
ride the scientists and the engineers who run the system and is 
now singularly dictating how the dams are managed, including 
going against the scientific analysis and ordering spill to 
maximum level, known as the gas caps.
    Spilling at these gas caps not only threatens the 
reliability of the Federal power and transmission system and 
causes detrimental impacts to transportation and barging, to 
flood control and irrigation, there are also scientific studies 
warning that the increased gas levels harm the very fish 
species that we are trying to protect.
    Six months ago, I sent a request to Washington's Senators, 
both Patty Murray and Maria Cantwell, warning of the $40 
million bill that was estimated to fall on the backs of our 
constituents due to this spill order and asked them to join us 
in our efforts to save our dams. Unfortunately, that action did 
not take place, and in the end a $38.6 million bill landed on 
the backs of Washington ratepayers. Ratepayers could be facing 
the exact same bill this coming year if the Senators do not 
join our efforts.
    So, I am doing everything in my power to protect ratepayers 
in Central Washington, from introducing legislation to protect 
the dams, which I am proud to say has now passed the House and 
awaits action by the Senate, to drafting an appropriations 
provision that stops the reckless spill order, to requesting 
today's hearing, and I will not stop working on behalf of this 
vital system.
    It is my hope for this hearing today that a national 
audience will learn more about the myriad benefits our river 
system provides and how our rivers truly do provide for our way 
of life. I look forward very much to hearing all of your 
testimony, and I yield back, Mr. Chairman.
    Mr. Lamborn. Thank you.
    I now recognize Representative Cathy McMorris Rodgers for 
her opening statement.

STATEMENT OF THE HON. CATHY McMORRIS RODGERS, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. McMorris Rodgers. Thank you, Chairman Lamborn.
    It is great to be with my colleague, Representative Dan 
Newhouse. We are delighted to have everyone here today, and I 
appreciate the opportunity to join in celebrating the river 
system.
    Congress created the Bonneville Power Administration (BPA) 
in 1937 on the heels of the Great Depression to distribute 
power generated from the development of two federally 
authorized dams, Bonneville and Grand Coulee. These marvels of 
engineering provided the Pacific Northwest with the Nation's 
most affordable and most reliable energy.
    In 1945, Congress authorized the construction of four large 
dams along the Snake River--Ice Harbor, Lower Monumental, 
Little Goose, and Lower Granite--to grow what we call the 
Federal Columbia River Power System. These four dams can power 
nearly 2 million homes, or a city the size of Seattle, and 
provide reliable base load, important energy to meet BPA's peak 
loads during the hottest days in the summer, when the wind 
doesn't blow, or the coldest part of winter, when the sun 
doesn't shine.
    We have a positive story to tell about how our dams bring 
incredible benefits and have transformed a dry, barren region 
of sagebrush into one of the most productive in the country.
    In Washington State, hydropower provides almost 70 percent 
of our electricity needs, and it is clean and renewable.
    Our dams also provide barging and irrigation benefits for 
our Number one industry, agriculture; flood control for our 
communities; and recreational opportunities.
    Washington State is the most trade-dependent state in the 
country. An estimated 40 percent of our jobs are tied to trade, 
responsible for nearly $80 billion worth of exports. Our river 
system functions as a superhighway, employing 40,000 people in 
various capacities throughout our system of dams and locks.
    It would take 174,000 semi-trucks to move the goods which 
travel by barge each year. One barge equals 134 trucks. Barging 
provides efficient, cost-effective, and low-carbon flow of 
commerce.
    Despite all these benefits, we face significant challenges. 
Some argue that the four Lower Snake River dams in particular 
have negatively impacted migratory fish, yet the data show 
average fish survival rates of 97 percent. It is also important 
to note that of the 13 fish listed under the ESA, only 4 
species pass these dams. These record fish survival rates are a 
significant result of Federal research and investments in new 
technologies like fish-friendly turbines, new passage 
technologies, and modified operations.
    In addition, we have implemented with Northwest states and 
tribes massive habitat restoration.
    All of this comes at a cost. Around one-third of BPA's 
wholesale power costs go to fish and wildlife projects, $621 
million on fish operations and fish and wildlife projects in 
2016.
    Now, due to a judge's decision in Portland, the region is 
spilling even more water over the dams, a mandate that will 
cost ratepayers an estimated $38 million. Why is this judge 
ignoring science? Why is this judge ignoring years of work on a 
Biological Opinion to satisfy the court demands, collaboration 
among Federal agencies, tribes, states, utilities, river users 
from the Pacific Northwest?
    This over-reach by the courts is why I sponsored the 
bipartisan bill, H.R. 3144, that passed this Committee to stop 
senseless spills.
    In eastern Washington, we understand the benefits of 
healthy salmon runs. That is why we have invested in research 
and new technologies and habitat restoration.
    We were all saddened to see the recent death of a newborn 
baby orca whale off the coast of Washington. However, the four 
Lower Snake River dams did not cause the whale to die.
    In fact, the Army Corps estimates that the dams would have 
a potential 2 percent impact on orca recovery. The larger 
impacts are ocean conditions and pollution. In order to protect 
orca whales and get them the salmon that they need, 50 percent 
of their diet, let's focus on what is actually going to get 
results.
    In addition, we should also consider the impact of hatchery 
fish. Orcas cannot tell the difference between hatchery and 
wild salmon, and yet we have reduced hatchery production.
    A recent NOAA and Washington Department of Fish and 
Wildlife report stated that recovering 12 western Washington 
rivers are more important to orca whales, and they provide the 
majority of the chinook they need to eat, not the Snake River. 
Another NOAA report states, and I quote, ``While chinook salmon 
population in places such as the Columbia River are surging, 
other populations like Puget Sound chinook and Sacramento River 
winter run chinook are struggling.''
    Last year, the Ninth Circuit mandated an experimental spill 
operation to test their theory that it would improve fish 
passage. This experiment is not based on science. In fact, 
science shows that too much spill will actually kill fish 
through increased gas bubbles in the water.
    Through the decades, the delegation from the Pacific 
Northwest has come together to protect and promote the value of 
the Columbia-Snake River System to our region. I appeal to my 
colleagues, House and Senate, Democrat and Republican, that we 
come together now and stop the courts from mandating theories 
not based on science that only add additional cost to 
ratepayers in our communities.
    The House of Representatives has passed three significant 
bills to support our dams. This includes legislation to support 
the collaborative BiOp, a proposal to stop the costly spill 
requirement, and Representative Herrera Beutler and Senator 
Risch's Sea Lion Predation bill. We have a lot to consider.
    I stand ready to listen to my colleagues' ideas, and 
everyone here today, to help fish, orcas, recreation, clean 
power and low rates, transportation, agriculture, our economy, 
and our environment. The fact of the matter is that dams and 
fish co-exist. Let's keep looking forward to a future that 
builds upon our economy and our environment and a great quality 
of life.
    And I yield back.

    Mr. Lamborn. Thank you.
    Before we hear from our invited witnesses, I want to take a 
moment to urge the audience to submit written comments that 
will be printed in the hearing record and will become part of 
the official hearing record. We want to include as many 
comments as possible. So, there are comment forms at the room 
entrance, and you can also submit comments at our website, 
which is www.naturalresources.house.gov, under ``Contact Us.'' 
We want to hear from you, and if you have any questions on how 
to do this, please see one of our staff members who are with us 
here today.
    I will now introduce today's witnesses. Our first witness 
is the former Chairman of the Natural Resources Committee, the 
Honorable Doc Hastings from Pasco, Washington; our second 
witness is Mr. Dan James, Deputy Administrator for the 
Bonneville Power Administration, from Portland, Oregon; our 
third witness is Ms. Terry Flores, Executive Director of 
Northwest RiverPartners from Portland, Oregon; our fourth 
witness is Mr. Kris Johnson, President and CEO of the 
Association of Washington Business, from Olympia, Washington; 
our fifth witness is Glen H. Spain, Northwest Regional Director 
of the Pacific Coast Federation of Fishermen's Associations 
from Eugene, Oregon; our sixth witness is Mr. Rob Rich, Vice 
President of Marine Services for Shaver Transportation, from 
Portland, Oregon; our seventh witness is the Honorable McCoy 
Oatman, Vice Chairman of the Nez Perce Tribe from Lapwai, 
Idaho--excuse me for mangling that; our eighth witness is Mr. 
Jack Heffling, President of the United Power Trades 
Organization from West Richland, Washington; and our final 
witness is Ms. Marci Green, President of the Washington 
Association of Wheat Growers, from Ritzville, Washington.
    Each witness' written testimony will appear in full in the 
hearing record, so I ask that witnesses keep their oral 
statements to 5 minutes as outlined in our invitation letter to 
you and under Committee Rule 4(a).
    I also want to explain how our timing lights work. When you 
begin to speak, our Clerk will start the timer and a green 
light will appear. After 4 minutes, a yellow light will appear, 
and at that time you should speed up and begin to conclude your 
remarks. And at 5 minutes, the red light will come on and I 
will ask that you conclude at that time.

    Congressman Hastings, you are now recognized for 5 minutes.

STATEMENT OF THE HON. DOC HASTINGS, A FORMER REPRESENTATIVE IN 
                  CONGRESS, PASCO, WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman. If I may, before we 
start the official clock, just let me give you a bit of history 
here. You mentioned that I am from Pasco. As a matter of fact, 
I spent my childhood about six blocks from here, and the 
building that you are in right here used to be the high school. 
But when I was going to junior high, it was the junior high. 
This room right here is where the old gym was. Just a little 
bit of background.
    Thank you, Mr. Chairman. I want to thank you, and it is 
nice to see my former colleague, Mrs. McMorris Rodgers here, 
and my Congressman, Dan Newhouse. I thank you for having this 
hearing today.
    I appreciate the opportunity to testify about the 
importance of protecting the Northwest hydropower dams and the 
economic and environmental benefits that they produce for our 
region and our Nation.
    Six years ago, when I chaired this Committee, we had a 
similar hearing to discuss my legislation on these dams, and I 
am pleased that the Committee continued focus on this issue.
    BPA's unsustainable financial situation requires a 
legislative solution aimed at putting a halt to ongoing 
litigation and shoring up the value of our region's greatest 
carbon-free hydropower resource.
    My testimony focuses on two basic points: (1) the need to 
advance the House-passed bipartisan legislation that uses best 
available Federal science to effectively stop an unelected 
Federal judge from running the river and halt edicts by extreme 
groups intent on misusing the ESA to remove dams; and (2) to 
highlight the hypocrisy of those that downgrade hatchery salmon 
as inferior to wild salmon.
    First, I commend and strongly support your efforts to pass 
H.R. 3144 to codify the 2014 BiOp, an opinion that is supported 
by scientists, three different administrations, states, tribes, 
courts, and many more. The Senate needs to take up this 
legislation. And if they don't, I would encourage you to find a 
vehicle to attach it to before the end of this Congress.
    Let me set aside for the moment the role of the dams, 
because that will be well-documented by the other witnesses. A 
continuing irony is that a vast majority of returning salmon to 
most areas of the Columbia and Snake Rivers come from 
hatcheries. Hatcheries have been used for more than a century, 
decades longer than dams have been around. Yet, some extreme 
groups say that there is a difference between so-called 
``wild'' and hatchery-bred salmon. They claim hatchery salmon 
are inferior and negatively impact wild salmon. They file ESA-
related lawsuits to shut down tribal and state hatcheries, 
which actually would help recover salmon.
    This flies in the face of a number of scientific studies 
and the ESA itself. For example, a 2012 peer-reviewed 
scientific study conducted by the Columbia River Intertribal 
Fish Commission and Nez Perce tribal scientists found that 
hatchery fish did not negatively impact the fitness of wild 
fish and that hatchery fish can successfully boost populations 
with little, if any, negative impacts. And over a decade ago, 
10 independent fishery scientists representing a range of 
educational institutions and agencies found that hatchery fish 
successfully reproduce in the wild and found no evidence that 
they negatively impact wild salmon. In fact, they found that 
hatchery fish are indistinguishable when interbred with wild 
populations.
    Mr. Chairman, I would like to ask consent to make those 
part of the record, if I may.
    Mr. Lamborn. No objection, so ordered.
    Mr. Hastings. Many groups also focus on the declines of 
wild salmon, while primarily faulting dams for salmon declines, 
and they look the other way as huge numbers of wild salmon, 
ESA-listed salmon, are harvested. In a recent report to the 
Northwest Power Council, NOAA acknowledged that as much as 19 
percent of Snake River steelhead; 43 percent, nearly half, of 
Snake River fall chinook; and 53 percent, over half, of Lower 
Columbia fall chinook are now harvested in the ocean or the 
river. These staggering numbers run contrary to the intent of 
ESA. We are, in fact, harvesting an ESA-listed species.
    So, now it is time for Congress to step up and offer 
solutions such as H.R. 3144 that you alluded to. And let me 
suggest, too, that there is a model for this, and the model is 
the American buffalo. We all know how iconic the American 
buffalo was and how it roamed the Great Plains. We knew that 
the Native Americans used buffalo as a food source, and also as 
a clothing source. And we know that when we settled the West, 
the buffalo became a source of food for our settlers that 
settled the West, and they roamed the Great Plains.
    As civilization moved, we know that the buffalo population 
declined. Somebody, or several people, decided well before ESA 
was put in place, that the buffalo needed to be preserved. So, 
they set up taking buffalo, reproduced them on farms, and so 
forth. Nobody to my knowledge suggested that we should wipe out 
the Great Plains and have the buffalo run the Great Plains.
    So, we now have buffalo, which is a commercial product. You 
can buy that virtually any place in the country.
    Let me suggest to you that the reason why that is done is 
because we have hatchery buffalo.
    [Laughter.]
    Mr. Hastings. So, what I would suggest, if we simply take 
the adjective ``wild'' out of salmon and put all salmon 
together as the number of salmon coming back, I think we will 
go a long way to solving our problem, because there is a great 
deal of hypocrisy in that.
    Mr. Chairman, thank you very much, and members of the 
Committee, for inviting me to testify. I yield back.

    [The prepared statement of Mr. Hastings follows:]
 Prepared Statement of Doc Hastings, Former Representative in Congress 
                      from the State of Washington
    Thank you, Mr. Chairman, Congressman Newhouse and McMorris Rodgers 
for holding this important hearing today.
    I appreciate the opportunity to testify about the importance of 
protecting the Northwest's hydropower dams and the economic and 
environmental benefits they produce for our region and the Nation. 
About 6 years ago, as Chairman of the House Natural Resources 
Committee, I convened a similar hearing to discuss my legislation to 
protect the dams.
    I am pleased with the Committee's continued focus on this critical 
issue. SPA's unsustainable financial situation requires a legislative 
solution aimed at putting a halt to ongoing litigation and shoring up 
the value of our region's greatest carbon free hydropower resource. In 
addition, the Trump administration can provide immediate policy 
leadership in the form of agency guidance and regulation that ensures 
dams and fish can co-exist.
    My testimony focuses on two basic points: (1) the need to advance 
House-passed, bipartisan legislation that uses best available Federal 
science to effectively stop an unelected Federal judge from running the 
river and halt edicts by extreme groups intent on misusing the ESA to 
remove dams; and (2) highlight the hypocrisy of those that downgrade 
hatchery salmon as inferior to so-called ``wild'' salmon. This is an 
issue that could really benefit from high-level Administration 
scrutiny.
                the importance of a legislative solution
    First, I commend and strongly support your efforts to pass H.R. 
3144 to ``codify'' the 2014 FCRPS biological opinion--supported by 
scientists, three administrations, states, tribes, utilities, ports and 
many more. This bill is critical, not just to protect our region's 
clean, reliable, renewable power generation and economic viability, but 
also to make clear that Congress plays an important role regarding the 
authorization of the multi-purpose dams and their legacy. The Senate 
needs to take this legislation up, pass it, and the Administration 
needs to sign it into law to end the uncertainty, get out of the 
courtroom, and allow the plan to protect the dams and salmon.
 administration policy leadership--``hatchery'' v. ``wild'' esa salmon
    Setting aside for a moment the role of dams, a continuing, 
troubling irony is that the vast majority of returning salmon to most 
areas of the Columbia and Snake Rivers come from hatcheries. Hatcheries 
have been used for more than a century--decades longer than dams have 
been around--to mitigate and supplement salmon. Yet, some extreme 
groups that distinguish between so-called ``wild'' and ``hatchery''-
bred salmon, claim hatchery salmon are ``inferior'' or negatively 
impact ``wild'' salmon. They've filed ESA-related lawsuits to shut down 
successful tribal and state hatchery programs, which actually help 
recover salmon.
    This flies in the face of a number of scientific studies and the 
ESA itself. For example, a 2012 peer-reviewed scientific study 
conducted by Columbia River Intertribal Fish Commission and Nez Perce 
tribal scientists in Johnson Creek near Idaho's south fork of the Snake 
River, found that hatchery fish did not negatively impact the fitness 
of ``wild'' fish, and that hatchery fish can successfully boost salmon 
populations with little, if any, negative impacts. I have attached a 
full copy of that study to my testimony for the record.
    Over a decade ago, 10 independent fisheries scientists representing 
a range of educational institutions and agencies found hatchery fish 
successfully reproduce in the wild, and found no evidence that they 
negatively impact ``wild'' salmon. In fact, they found that hatchery 
fish are indistinguishable when interbred with wild populations. I have 
also attached these findings, which cite more than two dozen scientific 
studies.
    With technology such as DNA that wasn't used when salmon were first 
listed, the Trump administration would be wise to revisit and update 
its ESA policies and agency findings to ensure hatchery and ``wild'' 
salmon are treated the same for ESA listing and delisting purposes and 
recovery. A similar review of NOAA's policies sanctioning harvest of 
ESA-listed salmon should also be conducted.
    Many groups focus on declines of ``wild'' salmon, while primarily 
faulting dams for salmon declines, and look the other way as huge 
numbers of ``wild,'' ESA-listed salmon are harvested. In a recent 
report to the Northwest Power Council, NOAA acknowledged that as much 
as 19 percent of Snake River steelhead, 43 percent of Snake River fall 
chinook and 53 percent of Lower Columbia fall chinook are now harvested 
in the ocean or in the river. These staggering numbers run contrary to 
the intent of the ESA. Hatchery salmon simply cannot be ignored when 
counting and recovering salmon.
    Now is the time for Congress to step up and offer solutions such as 
H.R. 3144 that seek to protect a clean, reliable energy resource that 
continues to drive our region's economy. It is also time for the 
Administration to provide policy leadership and put forth innovative 
solutions that ensure salmon and dams can continue to co-exist.

                                 ______
                                 

    Mr. Lamborn. Thank you for being here, thank you for your 
testimony, and thank you for your service to our country.
    Let's see, Mr. James, you are now recognized for 5 minutes.

  STATEMENT OF DANIEL JAMES, DEPUTY ADMINISTRATOR, BONNEVILLE 
             POWER ADMINISTRATION, PORTLAND, OREGON

    Mr. James. Thank you, Mr. Chairman. My name is Dan James. I 
am the Deputy Administrator of the Bonneville Power 
Administration, and I am really pleased to be here today to 
discuss the continuing contributions of Federal hydroelectric 
power to the economy and the environment of the Pacific 
Northwest.
    As Mr. Newhouse and Mrs. McMorris Rodgers have so 
eloquently stated, as has Mr. Hastings, BPA was created in 1937 
to carry out Franklin Roosevelt's vision for harnessing the 
power of the Columbia River. In successive generations, the 
value of the river has been expressed in ways that met the 
challenges of the times: bringing electricity to rural homes 
and farms--I have met people in my life who can say I remember 
when the lights came on; powering the factories that built the 
ships and planes that won World War II; developing the inter-
regional power exchanges between the Pacific Northwest and 
California; delivering the benefits of the Columbia River 
Treaty; enabling the development of additional renewable 
resources; and restoring the fisheries and wildlife so prized 
by the people of the Northwest.
    Today, hydropower generation, along with the other 
authorized purposes of the Columbia River power system, remains 
the workhorse that powers the economy of the Pacific Northwest.
    I would like to call our attention to three key attributes 
of hydropower that make it especially valuable in the evolving 
western electricity market.
    First, hydropower is reliable and dispatchable. Columbia 
River hydropower provides dependable electricity generation 
around the clock and through every season of the year.
    Second, here in the Northwest, our coldest weather can last 
for many days as high pressure systems hold over the region. 
Also, heat waves, including those we experienced this summer, 
drive peak demand for electricity, requiring sustained 
generation for many days. The hydro system is capable of, and 
in fact is planned for, meeting sustained periods of high 
demand.
    The Columbia River Power System delivers carbon-free 
peaking capacity that is difficult to replace with alternative 
renewable resources. There is no comparable source of firm, 
reliable power available that delivers the same value at 
anywhere near the cost of the Federal Columbia River 
hydroelectricity system.
    And not far from here, the four Lower Snake River dams 
supply up to one-quarter of BPA's operating reserves. Without 
the flexibility and operating reserves that these dams supply, 
the region would lose a substantial amount of its ability to 
deliver reliable energy, including the balancing of variable 
energy resources.
    Second, hydropower is fundamental to the regional economy. 
As I mentioned in my opening remarks, low-cost hydroelectric 
power has been a major asset for this region's economy since 
the Great Depression and the days of World War II. Today, 
Federal power continues to serve many remote rural communities 
across the Northwest that have few other economic advantages to 
offer industry and business.
    And third, hydropower contributes to the clean energy 
economy. Responding to state mandates, Federal incentives, and 
the declining cost of technology, much of the West is 
attempting to meet clean electricity goals through other 
renewable resources such as wind and solar. As these variable 
resources grow in the Western Interconnection, hydro offers 
adaptable operational capability to integrate them reliably and 
at low cost.
    Now I would like to turn to the success of fish and 
wildlife investments. The Federal hydro system is also unique 
in the extensive modifications and operational changes made for 
the protection and enhancement of fish and wildlife. BPA's 
ratepayers invested billions of dollars to improve design and 
operation of the dams. The trend of salmon and steelhead 
survival is on the rise. We continue to post returns that by 
some measures are near the numbers seen before Bonneville Dam 
was built.
    Still, Federal hydropower operations are subject to ongoing 
litigation and environmental review. In 2018, court-ordered 
spill above the levels specified in the current Biological 
Opinion was valued at $40 million in lost revenue. It resulted 
in BPA implementing program funding reductions and a $10 
million surcharge in its power rates.
    Now I will conclude. I would like to thank you for the 
opportunity to participate in this hearing. The Columbia River 
hydropower system continues to deliver on President Roosevelt's 
original vision to benefit the people of the Pacific Northwest, 
while also driving our modern economy and contributing to the 
quality of life that we so greatly value here in the Northwest.
    Thank you, Mr. Chairman.

    [The prepared statement of Mr. James follows:]
Prepared Statement of Daniel M. James, Deputy Administrator, Bonneville 
                          Power Administration
    Good afternoon, Mr. Chairman. My name is Dan James. I am Deputy 
Administrator of the Bonneville Power Administration (BPA) 
headquartered in Portland, Oregon. I am pleased to be here today to 
discuss the continuing contributions of Federal hydroelectric power to 
the economy and environment of the Pacific Northwest.
    BPA markets the hydropower from 31 Federal dams in the Columbia 
River Basin. These dams are operated by the U.S. Army Corps of 
Engineers (the Corps) and the Bureau of Reclamation (Reclamation). 
Bonneville also markets the output of the Columbia Generating Station, 
a 1,100 megawatt nuclear power plant near Richland, Washington. 
Connecting all of these resources with the rest of the Western electric 
grid are the 15,000 miles of high-voltage transmission lines that 
Bonneville owns and operates.
    BPA was created in 1937 to carry out President Franklin Roosevelt's 
vision for harnessing the power of the Columbia River. In successive 
generations, the value of the river has been expressed in ways that met 
the challenges of the times: bringing electricity to rural homes and 
farms; powering the factories that built the ships and planes that 
helped win World War II; developing inter-regional power exchanges 
between the Pacific Northwest and California; delivering the benefits 
of the Columbia River Treaty; enabling the development of additional 
renewable resources; and restoring the fisheries and wildlife so prized 
by the people of the Northwest. Today, hydropower generation, along 
with the multiple other purposes of the Columbia River power system, 
remains the workhorse that powers the economy of the Pacific Northwest.
                             value of hydro
    I'd like to call attention to three particular attributes of 
hydropower that make it especially valuable in the evolving Western 
electricity market.

    <bullet> Hydropower is highly reliable and dispatchable: Columbia 
            River hydropower provides dependable electricity generation 
            around the clock and through every season of the year. For 
            example, here in the Pacific Northwest, our coldest weather 
            can last for many days as high pressure systems stagnate 
            over the region. Similarly, heat waves such as what our 
            region experienced this summer drive peak electrical demand 
            requiring sustained generation for days. The hydro system 
            is capable of, and in fact is planned for, meeting 
            sustained periods of high demand. As the region has 
            developed large amounts of wind generation, the Federal 
            hydropower system has been able to compensate for the 
            variable nature of wind and preserve reliability during 
            periods of low wind generation. The dams of the Federal 
            Columbia River Power System had a sustained peaking 
            capacity in January of nearly 10,000 megawatts for 120 
            hours.

    <bullet> The Federal Columbia River Power System delivers carbon-
            free peaking capacity that is difficult to replace with 
            alternative renewable resources. There is no comparable 
            source of firm, reliable power available that delivers the 
            same value at anywhere near the cost of Federal Columbia 
            River hydroelectricity.

      Not far from here, the four lower Snake River dams supply up to 
            one-quarter of BPA's operating reserves. Reserves are the 
            capacity that utilities are required to have available to 
            meet unexpected changes in generation or electrical demand. 
            Without the flexibility and operating reserves that these 
            dams supply, the region could lose a substantial amount of 
            its ability to deliver reliable energy, including the 
            balancing of variable energy resources.

    <bullet> Hydropower is fundamental to the regional economy: As I 
            mentioned in my opening remarks, low-cost hydroelectric 
            power has been a major asset for this region's economy 
            since the Great Depression and the days of World War II. 
            Today, Federal power continues to serve many remote rural 
            communities across the Northwest that have few other 
            economic advantages to offer industry and businesses. The 
            new manufacturing economy in much of the Northwest is more 
            technologically advanced than ever, and these manufacturers 
            depend on reliable electricity with stable voltage and 
            near-zero interruptions.

    <bullet> Hydropower contributes clean energy: Responding to state 
            mandates, Federal incentives and the declining cost of 
            technology, much of the West is attempting to meet clean 
            electricity goals through other renewable resources, 
            particularly wind and solar. As these variable resources 
            grow in the Western Interconnection, hydro offers adaptable 
            operational capability to integrate them reliably and at 
            low cost.

                 importance of maintaining hydro assets
    Preserving these valuable attributes requires constant reinvestment 
to replace and upgrade aging equipment. BPA is adopting a more rigorous 
approach for hydropower asset management that leads to the most 
efficient use of resources, recognizing that our assets do not all 
deliver the same value. Achieving these objectives for power requires 
collaborative, long-term planning with the Corps and Reclamation, our 
Federal partners. Through the Asset Investment Excellence Initiative, 
the three agencies have established prioritized goals to drive aligned 
investment decisions and improve contracting and project-management 
practices. We are already seeing the cost reductions and operational 
efficiencies from this effort. Longer term, this approach will produce 
the highest economic benefit and derive maximum value from the system, 
while meeting non-power purposes and environmental requirements.
               substantial fish and wildlife investments
    The Federal Columbia River hydro system is also unique in the 
extensive modifications and operational changes made for the protection 
and enhancement of fish and wildlife. Since the 1980 Northwest Electric 
Power Planning and Conservation Act, BPA has invested billions of 
dollars in improved design and operation of the dams, as well as in 
off-site restoration efforts for the benefit of fish and wildlife 
sponsored by tribes, states, and rural communities. The trend of salmon 
and steelhead survival is on the rise--we continue to post returns that 
by some measures are near the numbers seen before Bonneville Dam was 
built.
    Nonetheless, hydropower operations are subject to ongoing 
litigation and environmental review. In 2018, court-ordered spill above 
the levels specified in current Biological Opinions was valued by BPA 
at $40 million in lost revenue. It resulted in BPA implementing program 
funding reductions and a $10 million surcharge in its power rates. 
Also, BPA, the Corps, and Reclamation are undertaking a major 
environmental review of the Federal Columbia River hydro system through 
the Columbia River Systems Operation environmental impact statement.
               significance of the columbia river treaty
    The Columbia River Treaty is an agreement between the United States 
and Canada that jointly coordinates operations for flood risk 
management, hydropower generation, and other benefits. The Treaty went 
into effect in 1964 and has been a model of transboundary water 
resource cooperation ever since.
    We are nearing an important date for the Treaty. In 2024, 60 years 
of prepaid flood control space from Canada will end, and the Treaty 
will shift to a different flood-risk management regime. Also, either 
country may terminate the agreement at any point after September 2024 
with at least 10 years advance notice. These milestones present the 
opportunity for both countries to reconsider whether aspects of the 
Treaty's implementation can be modernized post-2024 to better reflect 
today's realities and continue to provide appropriate benefits to the 
region.
    The United States has begun negotiations with the Canadian 
government on the future of the Treaty. BPA is the chair of the United 
States Entity and is a member of the negotiation team. The Department 
of State, with the United States negotiation team, holds regular 
meetings to inform the region and sovereigns of the status of the 
discussions.
                               conclusion
    In conclusion, Mr. Chairman, I would again like to express my 
appreciation for the opportunity to participate in this hearing. The 
Federal Columbia River hydropower system continues to benefit the 
people of the Pacific Northwest, while also powering our modern economy 
and contributing to the quality of life that people so greatly value in 
our region today.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    Ms. Flores, you are now recognized for 5 minutes.

   STATEMENT OF TERRY FLORES, EXECUTIVE DIRECTOR, NORTHWEST 
                RIVERPARTNERS, PORTLAND, OREGON

    Ms. Flores. Thank you, Chairman Lamborn, Representative 
Newhouse, and Representative Cathy McMorris Rodgers. I really 
appreciate the opportunity to come this morning and talk to you 
about not just the benefits that the Federal hydropower system 
provides but some of the issues that it is facing, particularly 
in the courtroom.
    RiverPartners supports salmon restoration policies and 
actions that are based in sound science to ensure that the 
measures being taken will provide demonstrable benefits to the 
salmon and wildlife we are trying to protect and to ensure that 
they are a good investment of ratepayer dollars. Sadly, I am 
here today to tell you that decisions surrounding the operation 
of the Federal hydropower system and endangered salmon that 
affect every person in the Northwest are currently not being 
made based in sound science or cost-effectiveness, but by a 
District Court judge in Portland, Oregon; and anti-dam forces 
are once again trying to make the Snake River dams a scapegoat 
in salmon and now orca restoration efforts. So, I appreciate 
the opportunity to share some of the actual facts surrounding 
these issues with you this morning.
    I would like to tailor my remarks to two issues: spill 
operations at the Federal hydro projects, and then dam removal. 
When I talk about spill operations, I want to emphasize that 
the spill levels that are out right now are absolutely a case 
of diminished returns for both the endangered salmon we are 
trying to protect, as well as Bonneville's customers.
    Today, the Federal hydro system is at great risk, driven by 
over 20 years of ESA litigation and court rulings which have 
de-rated the system already by over 1,000 megawatts, increased 
Bonneville's rates roughly 30 percent in just the last few 
years, and have created huge uncertainty over how the Federal 
hydro system will be operated and at what cost to customers, 
even next year. That is because the Federal hydro system, as I 
mentioned, is being run from the bench in the Oregon District 
Court based on spill injunction motions that are being brought 
by national and local fish advocate and anti-dam groups.
    Even this year, the Oregon District Court, as Dan 
mentioned, granted a motion that forced the Federal agencies to 
operate the Federal hydro system to maximum spill levels 
allowed by law on a 24/7 basis for 6 weeks during the spring 
run.
    What is spill? Spill involves raising large gates at the 
dams which allow water and young fish to shoot out over the 
spillways. The theory is that spill will hasten juvenile salmon 
migration downstream to the ocean and result in more returning 
adults. However, spill also adds dissolved gas to the water, 
which can give young fish the bends, like divers, harming or 
even killing them.
    So, spill is like medicine. The right amount can help you, 
and already we are spilling 30 to 40 percent of the Columbia 
and Snake Rivers. But too much can hurt or even kill you.
    Here's the rub: as Congresswoman Cathy McMorris Rodgers 
noted in her statement, there is no proof that more spill will 
be better for salmon. NOAA Fisheries Science Center modeling of 
this year's court-ordered experimental spill operations showed 
there would be little to no impact on salmon survival. The 
Corps also found it nearly impossible to operate the system at 
maximum spill and routinely exceeded the state total dissolved 
gas standards that are in place to protect endangered fish.
    Dan has already covered the cost of the spill and the spill 
surcharge. I would also note that the added experimental spill 
operations added 840,000 metric tons of carbon to our skies, 
which is a 1.7 percent increase in Northwest electricity sector 
emissions.
    Now, let me quickly turn to Snake dam removal. Anti-dam 
groups continue to present Snake dam removal as a silver bullet 
that will save the Northwest's endangered salmon and now orcas. 
It is a false premise but a powerful fundraising tool for some 
of these organizations. There is no science that supports 
removal of the dams as the best means for salmon recovery.
    Don't take my word for it. I am obviously here because I 
support those dams. But last fall, Dr. Peter Kareiva co-
authored a paper with a UCLA graduate student, Valeri Carranza, 
entitled ``Fealty to Symbolism Is No Way to Save Salmon,'' and 
I would submit, by extension, orcas. With your permission, 
Chairman Lamborn, I would like to enter that paper into the 
record.

    Mr. Lamborn. With no objection, so ordered.
    Ms. Flores. Here are some key points from Dr. Kareiva's 
paper:
    ``There is no doubt that dams have caused salmon declines, 
but the operators of the dams have spent billions of dollars to 
improve the safety of their dams for salmon, and it is not 
certain that dams now cause higher mortality than would arise 
in a free-flowing river.''
    That is right. Where we are at now, based on NOAA Science 
Center analysis, is all of the improvements that have been made 
to the dams means that salmon are surviving at levels that are 
similar to rivers like the Fraser that are undammed.
    He also said, ``The problem is that a complex species and 
river management issue has been reduced to a simple symbolic 
battle--a battle involving a choice between evil dams and the 
certain loss of an iconic species.''
    And he also says, ``. . . it has become clear that salmon 
conservation is being used as a ``means to an end'' (dam 
removal) as opposed to an ``end'' of its own accord.''
    Dan has already covered----
    Mr. Lamborn. I am afraid we will have to conclude at this 
point, because the time is up.
    Ms. Flores. OK, thank you very much.
    Mr. Lamborn. I am sure you will have some questions, or at 
least I anticipate that you can finish up those thoughts.
    Ms. Flores. OK. Thank you. Sorry for going over.

    [The prepared statement of Ms. Flores follows:]
   Prepared Statement of Terry Flores, Executive Director, Northwest 
                             RiverPartners
                              introduction
    Thank you Chairman Lamborn, members of the Committee and 
Representative Newhouse for the opportunity to appear before you this 
morning to talk about the myriad benefits the Northwest's Federal 
hydrosystem provides to the environment, economy and our quality of 
life in the Northwest. I am Terry Flores, Executive Director of 
Northwest RiverPartners, an alliance of public utilities, ports, 
farmers and businesses joined together in the Pacific Northwest 
dedicated to the proposition that salmon and dams are and must continue 
to co-exist--and thrive. RiverPartners member organizations represent 
more than 4 million electric utility customers, 40,000 farmers, ports 
with thousands of employees and large and small businesses that provide 
hundreds of thousands Northwest jobs.
    We support salmon restoration policies and actions that are based 
in sound science to ensure the measures being taken will deliver real 
benefits to endangered salmon and wildlife and are a good investment of 
ratepayers' dollars. Sadly, I am here today to tell you that decisions 
surrounding operation of the Federal hydropower system and endangered 
salmon that affect every person in the Northwest are currently not 
being made based in sound science or cost-effectiveness but by a 
District Court judge in Portland, Oregon. And, that anti-dam forces are 
again trying to make the Snake River dams a scape goat in salmon and 
orca restoration efforts. I appreciate the opportunity to share some of 
the facts surrounding these issues with you today.
   the federal hydropower system: myriad and irreplaceable--benefits
    The Northwest is unique--and blessed--with an abundance of clean, 
carbon free hydroelectricity, nearly 60 percent of it supplied by the 
Federal dams on the Columbia and Snake Rivers. When President Franklin 
Delano Roosevelt signed the Bonneville Project Act in 1937, 81 years 
ago, he spoke of how the massive benefits of the Columbia River 
hydropower system would benefit the Northwest by providing power at 
cost to rich and poor alike, turn the desert into an agricultural 
oasis, and power industrialization. That vision came true and, along 
the way, the Federal hydrosystem helped win World War II.
    The Federal hydropower system provides carbon-free, at cost, 
reliable power valued at more than $3 billion annually to the Pacific 
Northwest. The system is made up of 31 dams with a capacity to produce 
over 22,000 megawatts of energy and in an average year the system 
generates 8,700 megawatts of clean, reliable energy. The four Snake 
River dams alone produce 5 percent of the Northwest's total hydro 
energy, enough to power a city the size of Seattle or the cities of 
Boise, Tri-Cities and Spokane, every year.
    Those calling for removal of these dams would have you believe that 
amount of power is insignificant, or can be replaced by intermittent 
wind or solar resources. The truth is this is a lot of carbon free 
energy that would be replaced largely by natural gas, adding 2-3 
million tons of added carbon to our skies.
    The Federal hydrosystem does much more than just provide clean 
energy. The system of Federal dams protect rural communities and big 
cities alike from devastating floods, creates a river highway that 
links the Northwest to the rest of the Nation producing over $20 
billion in economic opportunity and wealth; provides recreational 
opportunities and irrigation for over 7 million acres of farmland 
producing $8 billion in agricultural income. There is no question that 
the Federal hydrosystem is the backbone of the region's carbon free 
energy supply and the lifeblood of its economy.
         the largest species restoration program in the nation
    All this bounty came at a cost to the region's indigenous people, 
fish and wildlife resources and the land and water they occupy. As a 
result, the Northwest is home to the largest fish and wildlife 
restoration program anywhere in the Nation, and likely the world. Over 
$16 billion has been spent to mitigate for the impacts of the dams on 
fish and wildlife since the late 1970s. It is important to point out 
that the Northwest is unique in this respect too: almost all these 
costs are borne by Northwest families and businesses through their 
electric bills--not U.S. taxpayers. Without these costs, BPA's 
wholesale power rate would be about a third lower.
    Investments in salmon restoration include a complete overhaul of 
the Federal dams to make them more fish friendly in the early 2000s, at 
a cost of nearly $2 billion. For example, every one of the Federal 
mainstem dams on the Columbia and Snake Rivers have been retrofitted 
with state-of-the-art downstream fish passage technologies. These 
``fish slides'' and other technologies are helping young fish migrate 
downstream safely and swiftly with survival levels ranging from 96 
percent to nearly 100 percent. Due to the success of improved passage 
and dam operations, NOAA Fisheries and other scientists have stated 
that these survival levels are similar to those seen in undammed rivers 
such as the Fraser River in British Columbia. The dams also provide for 
safe upstream passage for adult salmon which utilize fish ladders 
installed when the dams were built to access their natal spawning 
grounds.
    The Northwest also is home to one of the largest habitat 
restoration efforts in the Nation. In the last 10 years, nearly $1 
billion has been spent by Northwest states and tribes to restore 
degraded habitat, remove culverts and increase water flows as a result 
of BPA's Fish Accord agreements. Nearly 1 million acres, the size of 
Rhode Island, have been protected or restored to provide quality 
habitat for fish and wildlife (See: www.critfc.org/blog/2018/08/14/
fish-accords-10-year-summary/).
    Fortunately, the work being done by the states and tribes and paid 
for by Northwest utility customers are paying dividends. Overall, 
salmon returns are trending upwards over the last 12 years with some 
years seeing record returns. While scientists agree that ocean 
conditions, where salmon spend 3 or 4 years of their lives (as compared 
to 15-20 days migrating through the hydrosystem) have the most impact 
on salmon survival, it's clear all the salmon restoration measures 
being taken are helping too. Unfortunately, these positive results for 
salmon have not put an end to the ongoing court battles.
           focus on spill is a case of ``diminished returns''
    Today, the Federal hydrosystem is at great risk driven by over 20 
years of Endangered Species Act (ESA) litigation and court rulings 
which have de-rated the system by over 1,000 megawatts, increased BPA's 
rates roughly 30 percent in just the last few years, and created huge 
uncertainty over how the Federal hydrosystem will be operated and at 
what cost to customers, even next year. That is because the Federal 
hydrosystem is being run by an Oregon District court judge from the 
bench, based on spill injunction motions brought by national and local 
fish advocate and anti-dam groups.
    This year, the Oregon District court granted a motion that forced 
the U.S. Army Corps (Corps) to operate the Federal hydro system to the 
maximum spill levels allowed by law on a 24/7 basis for a 6-week period 
this spring. Spill involves raising large gates at the dams which allow 
water--and young fish--to shoot out and over the spillways. The theory 
is that spill will hasten juvenile salmon migration downstream to the 
ocean and result in more returning adults. However, spill adds 
dissolved gas to the water which can give young fish the ``bends,'' 
like divers, harming or even killing them.
    Spill is like medicine: the right amount can help you, too much can 
hurt or even kill you. Already, 30 to 40 percent of the Columbia and 
Snake Rivers are spilled for fish instead of generating clean energy to 
power our economy and protect our environment.
    Here's the rub: there is no proof that more spill will be better 
for salmon. NOAA Fisheries Science Center modeling of this year's court 
ordered experimental spill operations showed there would be little to 
no impact on salmon survival. The Corps also found it nearly impossible 
to operate the system at maximum spill, routinely exceeding the state 
Total Dissolved Gas (TDG) standards designed to protect fish and 
aquatic species.
    The added court-ordered spill cost BPA and its customers $38.6 
million which BPA managed to whittle down to $10 million this year--by 
cutting other fish and wildlife projects. And, it added 840,000 metric 
tons of carbon to our skies, a 1.7 percent increase in Northwest 
electricity sector emissions.
    It's also important to point out another little known fact about 
Federal hydrosystem spill: the Army Corps has to obtain ``waivers'' 
from Oregon and Washington to exceed the state TDG standards that apply 
to hydro projects. Other hydro projects must be operated to meet a 110 
percent TDG standard; the waivers for the Federal projects allows the 
Corps to go up to 120 percent. The states set the TDG standard at 110 
percent because it is most protective of salmon and other aquatic 
species, based on their own review of the science. Years ago, some of 
the same plaintiffs that are now suing to increase spill, sued to keep 
TDG standards for hydro project at 110 percent.
    Now, plaintiffs in the litigation, the Federal agencies and state 
of Washington are discussing increasing spill and TDG levels even 
further. To what end? Added spill puts young salmon in the danger zone, 
increases BPA and customers' costs, and the benefits to endangered 
salmon, based on NOAA Science Center analysis, are decimal dust. This 
is a poor use of public dollars in salmon restoration. It does however 
keep the focus on the dams and dam removal instead of other measures 
that can and should be taken: habitat restoration, hatchery and harvest 
reforms.
     snake dam removal: symbolic but no way to save salmon or orcas
    Anti-dam groups continue to present Snake dam removal as a ``silver 
bullet'' that will save the Northwest's endangered salmon and orcas. It 
is a false premise, but a powerful fundraising tool. There is no 
science that supports removal of the dams as a means for salmon 
recovery.
    Last fall, Dr. Peter Kareiva co-authored a paper with a UCLA 
graduate student Valeri Carranza entitled: ``Fealty to Symbolism No Way 
to Save Salmon'' (and I submit, by extension, orca whales in Puget 
Sound). Dr. Kareiva has an impeccable science vita: Fellow of the 
American Academy of Arts and Sciences and National Academy of Sciences, 
former Chief Scientist at The Nature Conservancy, current Director of 
UCLA's Institute of the Environment and Sustainability. He analyzed the 
Northwest's endangered salmon issues directly as Director of 
Conservation Biology at NOAA's Northwest Fisheries Science Center from 
1999 to 2002.

    Here are some key points from his and Ms. Carranza's paper:

    <bullet> ``There is no doubt that dams have caused salmon declines, 
            but the operators of the dams have spent billions of 
            dollars to improve the safety of their dams for salmon, and 
            it is not certain that dams now cause higher mortality than 
            would arise in a free-flowing river.''

    <bullet> ``The problem is that a complex species and river 
            management issue had been reduced to a simple symbolic 
            battle--a battle involving a choice between evil dams and 
            the certain loss of an iconic species.''

    <bullet> ``. . . it has become clear that salmon conservation is 
            being used as a ``means to an end'' (dam removal) as 
            opposed to an ``end'' of its own accord.''

    The paper also describes how, in 1999, environmental groups 
supporting Snake dam removal ran a full-page ad in the New York Times, 
stating that if the dams were not promptly removed ``wild Snake River 
spring chinook salmon, once the largest run of its kind in the world, 
will be extinct by 2017.''
    Dr. Kareiva and Carranza point out: ``As we write this, it is 2017, 
the dams remain, and spring/summer chinook numbers are much higher than 
they were when that confident prophesy of extinction was printed.'' Yet 
the drum beat for dam removal continues despite any science indicating 
it would actually help, and not harm, endangered salmon and other 
species, and despite the enormous costs, increased carbon emissions, 
and damage it would cause the economy.
                        bpa's future is in peril
    The uncertainty of ongoing litigation regarding future operations 
of the Federal hydropower system has put the agency at grave risk. In 
2017, BPA announced a 5.4 percent increase in its wholesale power rate 
for Fiscal Year 2018 and 2019. This follows four sequential rate 
periods with rate increases averaging nearly 8 percent, meaning BPA's 
rates have risen roughly 30 percent in the last few years. Rising fish 
and wildlife costs have been a key driver in these rate increases. And, 
this year, BPA issued a $10 million ``surcharge'' on customers to pay 
for the costs of court ordered spill this spring.
    Even more concerning is the potential for future rate increases. 
Customers' contracts with BPA expire in 2028, however, they will be 
making decisions on their future power supplies well before that. 
Should BPA's rates continue to climb at their current trajectory, they 
likely will not be cost-competitive with other alternative market 
supply choices available to customers. And, if that happens, if BPA 
loses a few large customers or many small customers or some 
combination, it will not have sufficient customers or revenues to cover 
its costs including the costs of the fish and wildlife program. This 
also could jeopardize its ability to make its annual payment to the 
U.S. Treasury, which also affects the Nation's taxpayers.
    That is why RiverPartners thanks you, Chairman Lamborn, and 
Committee members who supported H.R. 3144, a bipartisan, common-sense 
bill that would have put science first and stopped judicial efforts to 
run the hydrosystem until a comprehensive environmental review of the 
system's impacts on listed fish was completed. I also thank and applaud 
Congressman Newhouse, Congresswomen McMorris Rodgers and Jaime Herrera-
Beutler, and Congressmen Greg Walden and Kurt Schrader, among others, 
for their sponsorship and unflagging support of this legislation and 
other actions to help bring more certainty to the operations of the 
Federal hydropower system and BPA's future financial health and 
security.
    As you recognize, as stewards of this great asset, it is imperative 
to identify practical and bipartisan solutions to these tough 
challenges. As stated, there is no silver bullet when it comes to 
restoring our iconic salmon, orcas or other species and the answer 
certainly won't be found in a court room. It requires following sound 
science, fostering collaboration, and providing strong leadership, as 
you have shown.
    It is hard, but it is worth it. Every day millions of people depend 
on the electricity that hums over BPA's 15,000 miles of transmission 
lines. New challenges await, from climate change to the energy demands 
of internet servers, but the agency remains at the very center of the 
economy and the environment of the Pacific Northwest.
    Thank you for holding this hearing today and for the opportunity to 
testify. I am happy to respond to any questions you may have.

                                 ______
                                 

    Mr. Lamborn. Mr. Johnson, you are now recognized for 5 
minutes.

 STATEMENT OF KRIS JOHNSON, PRESIDENT AND CEO, ASSOCIATION OF 
            WASHINGTON BUSINESS, OLYMPIA, WASHINGTON

    Mr. Johnson. Good morning, Mr. Chairman, Members of 
Congress. Welcome to the 4th Congressional District. It is my 
privilege and honor to speak before you this morning on a 
critically important tool.
    My name is Kris Johnson. It is my privilege to serve as 
President of the Association of Washington Business (AWB), the 
state's largest employer association, representing nearly 7,000 
employers--small, medium, and large--throughout the state of 
Washington. Those employers employ just over 1 million 
Washingtonians.
    I have a couple of thoughts that I think are vitally 
important to our discussion today at the Columbia and Snake 
River dams, and they come from two perspectives. First, as a 
former Tri-Citian, I know how important the dams are, not only 
to this community, but they really serve as the lifeblood of 
this region.
    Second, as the President of AWB, Washington's oldest and 
largest statewide business association, I can tell you that 
these dams play not only a critical role for the Columbia, for 
the state, but for the entire Pacific Northwest. These dams 
have fundamentally transformed our state's economy, opening new 
opportunities not only to agriculture but also manufacturing 
and high-tech. And I believe we all share the same goals: clean 
energy, a healthy environment, a sustainable future, and a 
strong economy, and that is what we enjoy right here.
    Washington's employers and families have taken great care 
to protect the air, water, and land for the generations. It is 
something we hold seriously. It is not an either/or issue. We 
can have healthy rivers and a healthy economy.
    Construction of these dams required a great deal of 
forethought and hard work from those before us. Investments in 
the dams laid the foundations for a strong and robust state 
economy. Low-cost power has been a key competitive advantage, 
attracting high-tech and manufacturing jobs throughout our 
state.
    In fact, Washington's manufacturing sector employs over 
286,000 Washingtonians, with an average compensation of $87,000 
a year. These are great family wage jobs that we enjoy.
    In fact, the total output from this sector was $58 billion 
in 2016, and the high-tech sector employs just over a half-
million Washingtonians, again statewide. As you came into Pasco 
today, you happened to see that we are surrounded by rich, 
vibrant farmland, vineyards, and food processing industries, 
all made possible because of the dams.
    In fact, Washington farmers are proud that they feed the 
world, whether it is potatoes, wheat, apples, milk, and so many 
other key important products. We are proud that we are a part 
of feeding the global economy.
    This is also the heart of Washington wine country. I know 
when you choose to have a glass of wine at the end of the day, 
I am sure you are choosing a Washington-based wine. We are the 
second-largest producer of wine in the country. In fact, today 
there are 900 wineries here in Washington State, with 55,000 
acres of grapes. The wine industry is critically dependent on 
two things, irrigation and dependable water. They have both of 
those here.
    The dams provide low-cost, clean, renewable energy. In 
fact, nearly 70 percent of Washington's electricity comes from 
reliable, clean, renewable hydropower, which accounts for 40 
percent of the hydroelectric generation in the entire United 
States.
    As we have heard today, Washington is a trade-driven 
economy. In fact, trade represents 40 percent of all jobs in 
Washington and is the largest single driver of the state's 
economy. The dams are a critical component for trade. They 
serve our growers, our seaports, moving Washington products to 
market with a limited carbon footprint. In fact, 60 percent of 
Washington's wheat harvest, which is just finished, is worth 
billions to the economy and moves by river to the West Coast 
ports, where it is sent around the world, and the dams provide 
a valuable recreation opportunity. It provides a quality of 
life, and we enjoy that in this state. Families enjoy boating, 
fishing, and other recreational activities that all drive local 
economies.
    So, for those reasons we support H.R. 3144 to protect the 
Columbia and Snake River dams, and I want to thank 
Representatives McMorris Rodgers and Newhouse for your hard 
work and your leadership on this specific issue that passed the 
House on a bipartisan vote earlier this year.
    We also vigorously support your appropriations provision to 
stop the spill order and hope our Senators will accept this 
compromise language to provide certainty for our river system.
    It took strong, visionary leaders to build the Columbia and 
Snake River dams, the results of which we enjoy today. They 
have proved hugely successful, producing powerful results for 
our state and our region. They have been transformative, they 
have been a catalyst, and they have been dynamic to our state's 
economy. They are powering our homes, our communities, and our 
economy.
    On behalf of Washington's employers and the employer 
community, we urge you to continue to support the Columbia and 
Snake River system. Thank you.

    [The prepared statement of Mr. Johnson follows:]
Prepared Statement of Kristofer Johnson, President and CEO, Association 
                         of Washington Business
    Mr. Chairman and distinguished members of the U.S. House of 
Representatives' Committee on Natural Resources, it is an honor to have 
the opportunity appear before you today at this oversight hearing on 
the Federal Columbia River Power System and its economic impact to the 
Pacific Northwest.
    As the president and CEO of the Association of Washington Business, 
which represents nearly 7,000 small, medium and large businesses across 
Washington State, I appreciate the opportunity to share with you today 
the vital importance of the Columbia and Snake River dam hydroelectric 
power system to Washington State's economy.
    As a former resident of the Tri-Cities, the dams are vitally 
important to the community and the Mid-Columbia region. And, as the 
president of the state's oldest and largest statewide business 
association, our members rely on the Columbia River Power System to 
power their operations in an environmentally friendly and cost-
effective manner. Simply put, the energy system is the lifeblood of 
Washington State and the entire Pacific Northwest region.
    The Columbia-Snake River dam system transformed Washington State's 
economy, opening new opportunities for our agriculture community to 
access markets around the world, but to also support a sustainable 
future and strong economy.
    The hydroelectric dam system aligns with our values--clean water, 
clean air and healthy land and waterways today and for generations to 
come. Our members--from the smallest businesses in rural communities to 
our large urban manufacturers--have proven it's not an either-or; we 
can have both healthy rivers and a healthy economy.
    Construction of the dams required a great deal of forethought and 
hard work by those who came before us. Those investments laid the 
foundation for a strong state and regional economy. They knew then what 
we know today: Low-cost power is a key competitive advantage, 
attracting high-tech and manufacturing jobs to Washington State.
    The numbers bear that out: Washington's manufacturing sector 
employs more than 282,000 people today and generated a total economic 
output of $58.4 billion in 2016. The growing high-tech sector today 
employs more than 503,000 people across the state.
    And, the dam system allows for robust and productive farm land 
where potatoes, wheat, apples and hundreds of other products are grown 
and harvested, then packaged by our vital food processing industry, 
powered by clean hydropower from the dams. Washington's agricultural 
land literally feeds people around the world.
    This is also the heart of wine country. Washington State is the 2nd 
largest premium wine producer in the country with more than 940 
wineries and 55,000-plus acres of wine grapes. This industry, like the 
other agricultural land, is critically dependent on the dams' water 
infrastructure for crop irrigation.
    The Columbia River dam system provides low-cost, clean, renewable 
energy. In fact, nearly 70 percent of Washington's electricity comes 
from reliable, clean and renewable hydropower, which accounts for 40 
percent of the hydroelectric generation in the United States.
    Per capita, Washington is the most trade-driven state in the 
Nation. International trade today accounts for 40 percent of all jobs 
in Washington State and is the largest driver of the economy. And, the 
dams are a critical component of trade. They serve growers and our 
seaports, moving products to market with a limited carbon footprint. 
Sixty percent of Washington's wheat harvest, worth billions to the 
economy, travels to West Coast ports via barge on the Columbia River to 
where it is shipped around the world.
    And, the dams are key to the quality of life in this region. 
Families enjoy boating, fishing and recreation, activities encourage 
tourism and drive local economies.
    For all these reasons, the Association also supported H.R. 3144 to 
protect the Columbia and Snake River dams. Thank you to Washington's 
U.S. Reps. Cathy McMorris Rodgers and Dan Newhouse for their hard work 
on the legislation, which passed the House this year on a bipartisan 
vote. We also vigorously support your Appropriations provision to stop 
the spill order, and we hope Washington's U.S. Sens. Patty Murray and 
Maria Cantwell will accept the compromise language that will provide 
certainty for the river system.
    It took strong, visionary leaders to build the dams that make up 
the Columbia-Snake River Power System. They have proved hugely 
successful, producing power for Washington State, the Pacific Northwest 
region and the Nation. And, the investments made--and continue to 
make--have transformed the region and its economy.
    On behalf of Washington's employer community, we urge you to 
continue to support the Columbia and Snake River dams.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    Mr. Spain, you are now recognized for 5 minutes.

 STATEMENT OF GLEN SPAIN, NORTHWEST REGIONAL DIRECTOR, PACIFIC 
  COAST FEDERATION OF FISHERMEN'S ASSOCIATIONS, EUGENE, OREGON

    Mr. Spain. Thank you, Mr. Chairman and members of the 
Committee. I have the honor to represent much of the West Coast 
commercial fishing industry, and I want to talk a little bit 
about the salmon fisheries. The Columbia River is our lifeblood 
as well, so I think the name of the panel here is quite 
appropriate to our interest as well.
    A little bit of background. Salmon is a powerhouse in our 
commercial fishing industry, but not just here. Keep in mind 
that when salmon migrate out, the juvenile salmon go north and 
south, so we are talking about an impact--the Columbia River 
essentially has an impact through its salmon runs all the way 
up into southeast Alaska and all the way down to central 
California.
    In fact, about 58 percent of the salmon that are harvested 
in Alaska come from the Columbia. It is still and once was the 
first largest salmon producing river in the world. So, we have 
that to look forward to.
    In the last few years, our industry has been on the order 
between $500 and $600 million in terms of just the wholesale 
value of the salmon landed in all of our three states and 
Alaska, and that amounts to more than $1.25 billion in economic 
benefits. That, however, is only a fraction of what is the 
potential productivity for salmon in the river. As you probably 
know, the original estimates are that between 10 and 16 million 
salmon return to the Columbia River historically. We are down 
to about between 1.5 and 2.5 million now. So, we have lost more 
than 80 percent of the productivity of the river system.
    The question is not the benefits of the dams or the 
benefits of other values in the river. We all know those have 
great benefits to society. The question which you have raised 
and everyone has raised is how can we make those co-exist truly 
with salmon runs. There are a multitude of things that are 
being tried, and there are a number of things that need to be 
tried in the future.
    We cannot stop the clock, go back in time, and rely on old 
science. It is pretty clear now and increasingly clear, for 
instance, that spill is a substantial benefit. I noted some 
recent studies, and I want to read into the record a paragraph 
from a letter from 47 of Pacific Northwest's most prominent 
regional fishery scientists which I referenced. It is an August 
2017 letter I referenced in my comments.
    ``In this letter, the undersigned scientists and fishery 
managers reaffirm the benefits of spill for salmon and 
steelhead of the Snake-Columbia River Basin as an essential 
interim measure awaiting a legally valid, scientifically 
credible, long-term plan. Specifically, we support an immediate 
increase in spill levels to benefit Snake and Columbia fish for 
reasons described more fully below,'' a reference to the 
comments themselves. ``Increased spill allows more juvenile 
salmon to pass dams safely via spillways rather than passing 
through powerhouses or bypass plumbing. With existing dams in 
place, spill offers the best potential to improve life-cycle 
survival.''
    That is the consensus right now of the scientific 
community. Given that fact, to jettison spill as a tool and 
return to a discredited, essentially scientifically obsolete 
plan is not good policy. I respectfully have to object to the 
kind of policy work that has been proposed in the past in that 
way.
    What we have is potential unexpected consequences from 
eliminating spill. Number one, keep in mind that the Pacific 
salmon treaty with Canada is an important element of Columbia 
River restoration, and the restoration elements in that treaty, 
provided for by international law with Canada, are being 
essentially abrogated by not using spill as a tool. It means a 
reduction in survival rates, which means we could go backwards. 
There have been very modest improvements in the runs because of 
a lot of the efforts, but we could easily slip backwards, 
particularly in adverse environmental conditions such as we are 
facing this year. That means we could potentially be wasting 
literally billions of dollars of ratepayer efforts for the past 
several years by going backwards in terms of our recovery 
efforts.
    Another thing is that it is likely to require more water if 
we are not using the water at the spillways wisely. The science 
is fairly clear that it will require more water from the Upper 
Basin to go through this system in order to improve those 
survival rates the equivalent of what spill could produce. So, 
you are potentially, once again, pitting lower river versus 
upper river interests in a water fight that has no end in 
sight.
    We can do better than that. We need a collaborative 
approach. We need to look realistically at all the science. We 
need to realistically look at all the policy decisions that are 
out there for us, and that are in the works now. To interfere 
with that with the legislative process would, in my view, be a 
serious mistake.
    Thank you.

    [The prepared statement of Mr. Spain follows:]
  Prepared Statement of Glen H. Spain, on behalf of the Pacific Coast 
             Federation of Fishermen's Associations (PCFFA)

    Thank you for the opportunity to testify. I am the Northwest 
Regional Director for the Pacific Coast Federation of Fishermen's 
Associations (PCFFA), which is the largest trade organization of 
commercial fishing families in the western United States. PCFFA 
represents thousands of working men and women in the U.S. Pacific 
commercial fishing industry, and has member fishermen's associations 
and/or individual members in every U.S. West Coast seaport from San 
Diego to Alaska.
 part 1--the importance of columbia river salmon to the whole regional 
                                economy
    Commercial salmon fishing is indeed the life-blood of a major U.S. 
industry, generating many billions of dollars annually to this region's 
economy, and supporting hundreds of thousands of family wage jobs in 
this region as well as providing high quality seafood for America's 
tables and for export.

    In Washington State alone, our seafood industry supports more than 
58,000 family wage jobs. Salmon fishing is one of the most important 
components of our commercial fishing industry west coast-wide, in 2014 
generating more than $688 million in direct landings sales at the 
docks, and in 2015 more than $509 million, which in turn each year 
supports more than $1.25 billion/year in related economic impacts to 
this region's economy (see Fisheries Economics of the United States, 
2015).\1\
---------------------------------------------------------------------------
    \1\ Available at: https://www.fisheries.noaa.gov/feature-story/
fisheries-economics-united-states-2015.

    The valuable Pacific salmon fishery--and tens of thousands of jobs 
in our industry that salmon support--is also greatly influenced by the 
health of the remaining salmon stocks in the Columbia River, which even 
in its greatly diminished state from its historic productivity 
(originally with runs estimated by the Northwest Power and Conservation 
Council of between 10 to 16 million salmonids/year) still remains the 
single most productive salmon-producing river in the lower 48 states. 
Even so, current salmon numbers today are only at best about 10 percent 
of what a restored Columbia River could potentially generate, even 
including hatchery production which is now the vast majority of fish in 
the river.\2\
---------------------------------------------------------------------------
    \2\ 13 major wild salmon and steelhead stocks native to the 
Columbia Basin are faced with potential extinction and protected under 
the Federal ESA. None have yet to meet basic recovery goals.

    Columbia River salmon abundances influence harvest allocations all 
the way from central California to well into Alaska (see Figure 1). In 
fact, approximately 58 percent of all salmon harvested commercially in 
Southeast Alaska come originally from the Columbia. Thus, the declines 
of salmon in the Columbia have impacted coastal economies all the way 
from central California to Southeast Alaska, including in British 
Columbia. Maintaining and recovering Columbia River salmon runs is also 
a key obligation of the United States under international law as 
embodied in the U.S.-Canada Pacific Salmon Treaty.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    .epsFigure 1: Geographical Influence of Columbia River--Origin 
Salmon Fisheries from Central California to SE Alaska

    The major alternation of the Columbia River system by dams is 
relatively recent, but has had devastating effects on the run size and 
species makeup of salmon resources throughout the basin. With more than 
400 dams \3\ in the Columbia River Basin, more than half of them 
dedicated (fully or partly) to generating hydropower, fish passage at 
dams has long been a major concern. Of these, only 31 Federal 
hydropower dams comprise the Federal Columbia River Power System 
(FCRPS), but these are the larger dams and 8 of these large dams are 
``mainstem dams'' which affect all salmon runs above their locations 
starting from the Bonneville Dam (near Portland). The FCRPS dams' 
operations are also coordinated with three major power dams on the 
Canadian side of the border through the U.S.-Canada Columbia River 
Treaty.
---------------------------------------------------------------------------
    \3\ This is an estimate from the NW Power and Conservation Council, 
based on the U.S. Army Corps of Engineers inventory of ``significant 
dams.'' However, no universally agreed upon census of dams in the 
Columbia Basin seems to exist.
---------------------------------------------------------------------------
    Additionally, there are thousands of smaller water storage dams, 
including at least 2,972 dams in the Interior Columbia Basin, with 
1,239 of those involving over 50 acre-feet of water. Only 4 percent of 
these smaller storage dams are also used for power generation.\4\ 
However, even small dams can block important fish passage routes and 
prevent spawning.
---------------------------------------------------------------------------
    \4\ Dam inventory data from Oregon and Washington state 
inventories. Because Federal inventory and inspection is only required 
for the larger dams and those with downstream hazard potential, and 
because state inventories are fragmentary, the total number of smaller 
water storage dams is likely larger.
---------------------------------------------------------------------------
    Severe salmon run declines in the Columbia over the past several 
decades have had devastating impacts on the economies of many western 
states. In an economic study by the Institute for Fisheries Resources 
(The Cost of Doing Nothing: The Economic Burden of Salmon Declines in 
the Columbia River Basin (Oct. 1996)), that study concluded that up to 
$500 million/year in regional economic benefits are being lost each 
year from salmon declines in the Columbia Basin, together with 
approximately 25,000 lost family wage jobs.\5\ The economic cost of the 
current highly depleted salmon status quo on the Columbia is, in fact, 
huge.
---------------------------------------------------------------------------
    \5\ Available at: http://www.pcffa.org/CDNReport-Columbia.pdf.
---------------------------------------------------------------------------
    Our sister industry, the recreational fishing industry, itself is 
also a multi-billion industry supporting tens of thousands of 
additional jobs in the Pacific Northwest, according to the American 
Sportfishing Association.\6\ That industry too, like the commercial 
salmon fishing industry and the jobs they both support, is almost 
entirely dependent on healthy rivers for its existence, including 
salmon and steelhead production from the Columbia Basin.
---------------------------------------------------------------------------
    \6\ See: http://asafishing.org/facts-figures/sales-and-economics.
---------------------------------------------------------------------------
    Today, the current salmonid runs of the Columbia number only about 
2.5 million (20 year annual average), which is less than 20 percent of 
historic numbers, and these are almost entirely hatchery fish in origin 
(95 percent coho, 60 percent fall Chinook and 80 percent spring Chinook 
are hatchery stock). There are an estimated 178 hatcheries active in 
the Columbia Basin with their production intended to mitigate for past 
wild salmon losses due to the dams, or for supplementation to replace 
otherwise lost salmon production.\7\ Unfortunately, this basin-wide 
hatchery mitigation program has only been partially successful, and 
wild salmon production losses still greatly exceed successful hatchery 
production.
---------------------------------------------------------------------------
    \7\ See Report to Congress on Columbia River Basin Hatchery Reform, 
Hatchery Scientific Review Group (Feb. 2009), available at: http://
hatcheryreform.us/wp-content/uploads/2016/05/HSRG-2009-Report-to-
Congress.pdf.
---------------------------------------------------------------------------
    There is a persistent myth that efforts to restore salmon runs in 
the Columbia are seeing ``record returns,'' supposedly to justify those 
efforts as successful. Unfortunately, this is a fabrication based on a 
``statistical trick'' of comparing very recent modest successes in some 
rebuilding efforts with near-extinction levels in the recent past. The 
truth is that we are not doing more than buying some time by postponing 
extinction, but still need to figure out how to meet even minimum 
recovery goals, which for nearly every ESA-listed stock have never yet 
been met.\8\
---------------------------------------------------------------------------
    \8\ See for instance these charts of Snake River Salmon and 
Steelhead Returns--1950s--2017: https://tinyurl.com/ycvm8j69.
---------------------------------------------------------------------------
    Salmon throughout the Columbia are in deep trouble, and so are the 
fishing families who depend upon them. When fewer salmon return from 
the ocean to Washington's rivers, this translates directly to lower 
catch limits, shorter seasons, and a reduced ability for commercial 
fishing families to earn a living. Salmon harvests fluctuate from year 
to year, but the overall trend, especially in the Columbia, has been 
one of sharp decline. Chinook (king) salmon and coho salmon are the 
most commercially valuable of western Washington's salmon species,\9\ 
and these are the species that have seen some of the steepest 
declines.\10\ From 1950 to 1955 in Washington, commercial landings of 
Chinook salmon averaged 10,248,683 pounds and coho averaged 11,779,067 
pounds, but from 2011 to 2016, chinook landings averaged only 5,866,870 
pounds, a reduction of about 43 percent, and coho landings averaged 
only 3,102,894 pounds, a reduction of about 74 percent.\11\
---------------------------------------------------------------------------
    \9\ Gordon Gislason & Gunnar Knapp, Economic Impacts of Pacific 
Salmon Fisheries, Pacific Salmon Comm'n (2017), available for download 
at http://www.psc.org/download/333/specialreports/9337/economic-
impacts-of-pacific-salmonfisheries.pdf.
    \10\ See Wash. State Recreation and Conservation Office, Governor's 
Salmon Recovery Office, State of Salmon in Watershed 2016 at 2 (showing 
declining trend in non-tribal chinook and coho harvests from the 1970s 
through 2015), https://stateofsalmon.wa.gov/governors-report-2016/.
    \11\ Nat'l Marine Fisheries Serv., Annual Commercial Landing 
Statistics (searchable by state, species, and year), https://
www.st.nmfs.noaa.gov/commercial-fisheries/commercial-landings/annual-
landings/index.
---------------------------------------------------------------------------
    Washington's salmon sport fisheries have also been declining for 
decades. From 1971 to 1974, the annual sport salmon catch in Washington 
averaged 1,224,881 salmon, but from 2010 to 2015, it dropped to an 
average of only 783,185 salmon, a reduction of about 36 percent. As 
with the commercial fisheries, the more valuable fisheries have seen 
the steepest declines. Excluding pink salmon (a numerous but less 
valuable species \12\), the sport catch in Washington dropped during 
2010 to 2015 to an average of only 539,584 salmon, a decline of 56 
percent from the 1971 to 1974 average.\13\
---------------------------------------------------------------------------
    \12\ See Wash. Dep't of Fish and Wildlife, Species Info, https://
wdfw.wa.gov/fishing/washington/Species/9009/ (pink salmon runs only 
occur in Washington in odd-numbered years); Kraig & Scalini, supra 
n.31, at 3 (nearly 40 percent of the total recreational salmon catch in 
Washington in 2015 were pink salmon); Gislason & Knapp, supra n.6, at 
12 Exh. 2 (compare weight landed with exvessel value).
    \13\ See Kraig & Scalini, supra n.31, at 14 tbl. 4 (average of 
total sport catch in even numbered years--2010, 2012, and 2014--is 
539,584).
---------------------------------------------------------------------------
    Make no mistake, decades of gradually lost western states' salmon-
river productivity has meant tens of thousands of lost jobs for our 
industry, nearly bankrupted many coastal communities, and caused 
widespread economic and social disruption in many rural communities and 
towns. On the flip side, however, more recent river restoration 
efforts--including the removal of salmon-killing dams when those dams 
no longer are cost-effective to keep, or where they were foolishly 
located--are helping to restore many thousands of local fishing and 
river-related jobs, providing economic lifeblood to once-dying coastal 
fishing-dependent communities, and restoring many billions of dollars 
to the U.S. economy. In short, more salmon means more jobs and stronger 
economies throughout the coastal western states.
    And while PCFFA does not represent, and cannot speak for, the many 
salmon-dependent West Coast tribes who also depend upon Columbia River 
salmon for their livelihoods, sustenance fisheries and cultures, it 
should be kept in mind that the continuing decline of salmon runs in 
the Columbia have also greatly impacted those tribes and their salmon-
based economies as well.
    part 2--columbia river salmon also support the entire regional 
                               ecosystem
    The once-great salmon runs of the Northwest never existed in an 
ecological vacuum, but were instead an integral part of an entire food-
web that still supports many other species. Salmon are a major or 
important food source not just for humans, but for at least 138 species 
of birds, mammals, amphibians and reptiles native to the Pacific 
Northwest that have been identified by scientists as predators or 
scavengers of salmon at one or more stages of the salmon lifecycle. Of 
this group of 138 species, 9 species have a strong-consistent 
relationship with salmon, and another 58 have a recurrent relationship 
with salmon. Yet another 25 species have indirect relationships that 
depend upon healthy salmon runs to support their direct prey base.\14\
---------------------------------------------------------------------------
    \14\ Species numbers and quote from introductory Abstract in 
Cederholm, C.J., D.H. Johnson, R.E. Bilby, L.G. Dominguez, A.M. 
Garrett, W.H. Graeber, E.L. Greda, M.D. Kunze, B.G. Marcot, J.F. 
Palmisano, R.W. Plotnikoff, W.G. Pearcy, C.A. Simenstad, and P.C. 
Trotter. 2000. Pacific Salmon and Wildlife--Ecological Contexts, 
Relationship, and Implications for Management. Special Edition 
Technical Report, Prepared for D.H. Johnson and T.A. O'Neil (Managing 
directors), Wildlife-Habitat Relationships in Oregon and Washington. WA 
Dept. of Fish & Wildlife, Olympia, WA.

    The Plight of Southern Resident Orcas: As just one current example 
of the intimate food-web dependency of many species on healthy 
Northwest salmon runs, consider the plight of endangered Southern 
Resident killer whales (Orcinus orca), or orcas. In 2005, due to their 
small population size and significant threats to survival, NOAA 
Fisheries issued a final rule designating Southern Resident orcas as 
endangered under the U.S. Endangered Species Act.\15\ Scientific 
studies have since shown that this whale population is food-limited, 
with their main food source Chinook salmon which are becoming 
increasingly scarce.
---------------------------------------------------------------------------
    \15\ 70 Fed. Reg. 69,903 (November 18, 2005).

    The 2008 NOAA Fisheries Southern Resident Killer Whale Recovery 
Plan states, ``Perhaps the single greatest change in food availability 
for resident killer whales since the late 1800s has been the decline of 
salmon in the Columbia River basin.'' \16\ Salmon restoration efforts 
on a region-wide basis are necessary to help achieve Southern Resident 
Orca recovery goals. Yet given the potential for substantial salmon 
recovery in the Columbia River basin, conservation efforts made there 
can contribute significantly to adequate and abundant prey for Southern 
Resident Orcas.
---------------------------------------------------------------------------
    \16\ National Marine Fisheries Service (2008) Recovery Plan for 
Southern Resident Killer Whales (Orcinus orca). National Marine 
Fisheries Service, Northwest Region, Seattle, Washington. At: II-82.
---------------------------------------------------------------------------
     part 3--thinking about dam removal--aging dams as a national 
                        infrastructure disaster
    First off, to see why in many cases dam removal makes good sense, 
we should consider the current state of the Nation's aging dams. There 
are, according to the U.S. Army Corps of Engineers' National Inventory 
of Dams, approximately 84,000 dams in the Nation providing a range of 
benefits and built for a wide array of purposes. This is a staggering 
number--almost one dam built in the United States for every day since 
the signing of the Declaration of Independence in 1776.
    Yet no dam can exist forever. All have engineered life spans, after 
which their reservoirs silt up, their concrete structures crack and 
deteriorate, and they can catastrophically fail--endangering the lives, 
property and natural resources (including drinking water supplies) of 
those who live far below and around them.

    An increasing number of the Nation's 84,000 dams are now 
economically obsolete, many are near or past their engineered life 
span, and quite a few no longer function to provide the benefits they 
were intended to produce. According to a January 2009 report by the 
Task Committee of the Association of State Dam Safety Officials, The 
Cost of Rehabilitating Our Nation's Dams, over 4,400 (at that time) of 
these 84,000 dams are now considered to be physically unsafe by state 
dam safety inspectors. From 2005 to 2008, their report notes, the 
states reported 566 dam incidents, including 132 dam failures--and that 
number is likely under-reported.\17\ The Nation's dam failure rate is 
also expected to accelerate. That report also noted that:
---------------------------------------------------------------------------
    \17\ That report is available at: www.damsafety.org/media/
Documents/DownloadableDocuments/RehabilitationCosts2009.pdf.

        ``Without proper maintenance, repairs, and rehabilitation, a 
        dam may become unable to serve its intended purpose and could 
        be at risk for failure. State and Federal dam inspection 
        programs can identify deficiencies in dams, but inspections 
        alone will not address safety concern posed by inadequately 
        maintained or outdated dams. For most dam owners, finding the 
        funds to finance needed repairs or upgrades is nearly 
        impossible. The lack of reliable funding to resolve dam safety 
---------------------------------------------------------------------------
        issue poses a threat to public safety nationwide.''

That important 2009 study also concluded that the cost of 
rehabilitation up to current safety standards of just the Nation's non-
federally owned dams would be $51.46 billion (even more in today's 2018 
dollars). To address just the most critical of these dams over the next 
12 years, the cost was estimated to be at least $16 billion.

    Congressional efforts to help provide those funds, the study noted, 
have been few and paltry compared to the urgent need. The report also 
notes that, at least at the time written, there was only one Federal 
program available for rehabilitation of non-federally owned dams (the 
Watershed Rehabilitation Act of 2000 (P.L. 106-472, Sec. 313)), and its 
funding was orders of magnitude smaller than what is actually going to 
be required.
    According to the U.S. Army Corps of Engineers, the average life 
expectancy of a dam is 50 years, with 25 percent of the dams in the 
Army Corps of Engineers National Inventory of Dams now more than 50 
years old. This number is projected to increase to 85 percent by the 
year 2020.\18\ A number of these aging dams are in the Columbia Basin. 
New energy technologies are also making many of these dams increasingly 
obsolete.
---------------------------------------------------------------------------
    \18\ Maclin E., Sicchio M. (1999, 16). Dam removal success stories: 
Restoring rivers through selective removal of dams that don't make 
sense. American Rivers, Friends of the Earth, & Trout Unlimited, 
December 1999. http://www.michigan.gov/documents/dnr/damsuccess_513764_ 
7.pdf. See also Army Corps of Engineers National Inventory of Dams 
(NID) http://nid.usace. army.mil/cm_apex/
f?p=838:1:0::NO::APP_ORGANIZATION_TYPE,P12_ORGANIZATION:2.
---------------------------------------------------------------------------
    In short, an increasing number of the Nation's dams are aging, 
increasingly obsolete, and becoming an infrastructure nightmare with 
serious repercussions for the Nation's public health and safety. This 
is just as true for the Columbia Basin dams as it is elsewhere in the 
Nation. Over the next 100 years, virtually all the dams in the Columbia 
Basin will have to be either retrofitted at substantial cost, or 
removed and/or replaced.
       each dam removal proposal must be judged on its own merits
    It is just as illogical to say ``all dams are good'' and should be 
kept as they are, as to say ``all dams are bad'' and should be removed. 
The fact is, each dam was originally designed and constructed to 
provide certain public benefits and engineered only to last for a 
specific life span. No dam can last forever--eventually it will either 
come down by human design or by catastrophic failure.
    Dams also can have a serious economic downside: they can block 
valuable rivers, destroying other valuable natural resource industries 
(including commercial or recreational fisheries), which in turn 
destroys jobs, and can have devastating impacts on water quality and 
disrupt natural hydrological flows that cause other societal problems 
such as greatly increasing the costs of providing clean drinking water 
to communities downstream.
    Any rational analysis must therefore conclude that dams that no 
longer provide sufficient public benefits to justify their existence, 
or which are reaching the end of their engineered life-span and 
becoming safety hazards, or which are creating other problems for 
society (such as destroying valuable fisheries) which push their 
economic value to society into the negative, are potential candidates 
for removal. Thus each dam removal project must be evaluated and judged 
on its own merits, always on a case-by-case basis.
    Dam removals are, in fact, nothing new--and by necessity, as many 
dams exceed their engineered life span, are accelerating in number. 
Information on 1,403 dams that were removed from rivers in the United 
States over the past century is now available to the public, compiled 
by American Rivers.\19\
---------------------------------------------------------------------------
    \19\ See: https://www.americanrivers.org/conservation-resource/
american-rivers-dam-removal-database-now-available-public/.
---------------------------------------------------------------------------
    As more Columbia Basin dams age, many more are becoming candidates 
for removal. Other dams can still be upgraded, their hydropower output 
improved with new technologies, and can remain in place longer--but 
always at an economic cost. If that cost to upgrade or retrofit a dam 
to modern relicensing and safety standards surpasses or outweighs the 
economic value of any benefits that dam can provide, then that dam 
becomes economically obsolete, and it should be considered for removal. 
But again, this is a case-by-case judgment that must be made for each 
dam.
    Recent hydropower dam removals in the Pacific Northwest that made 
good economic sense, and which also greatly benefited blocked salmon 
runs, include the removal of the Condit Dam and the Elwha/Glines Dam 
removal projects. In both cases, the salmon runs that those dams 
previously blocked are now returning in abundance.

    Summary of Part 3: Some hydropower dams still make economic sense, 
but in a growing number of instances it is dam removal that makes the 
most economic sense, and is increasingly the common sense as well as 
least-cost option.

    Not all dams are created equal. Many of the Nation's dams today, 
including a growing number of the 3,036 major hydropower-producing dams 
FERC currently regulates, simply no longer make economic sense. Many of 
these aging dams use old technologies and are thus functionally 
obsolete; some are orphaned or now abandoned; and others would be cost-
prohibitive to retrofit or rehabilitate, and so are economically 
obsolete. But if left in place they will ultimately fail 
catastrophically. The same analysis also applies to a growing number of 
federally owned dams.
    The only sensible option in such cases is simply to remove those 
obsolete dams entirely and replace their renewable power through more 
cost-effective (i.e., cheaper) sources, which can be done now from 
nearly anywhere else in the Nation's vast power grid. Recent dramatic 
increases in solar, wind, geo-thermal and other non-dam renewable 
energy sources increasingly make it possible to cost-effectively 
replace hydropower when necessary to do so.
                 part 4--major problems with h.r. 3144
    One of many bad ideas on the current congressional table that would 
damage salmon runs in the Columbia and throughout the U.S. West Coast 
(as well as jeopardize the international U.S.-Canada Pacific Salmon 
Treaty) is Rep. McMorris-Rodgers' bill, H.R. 3144 (``To provide for 
operations of the Federal Columbia River Power System pursuant to a 
certain operation plan for a specified period of time, and for other 
purposes.'').
    This badly conceived bill passed in the House on April 25, 2018, 
and is now pending in the Senate. However, portions of this bill also 
are now appearing in the form of a ``partial rider'' to other bills, 
including the draft Conference Energy & Water Appropriations bill (H.R. 
5895) currently at Division A, Title V (General Provisions), Sec. 506, 
but which may now be wrapped into a proposed appropriations ``minibus'' 
package currently under Conference discussion in the Senate.

    Passing any part of H.R. 3144 into law (whether by regular bill or 
by partial ``rider'' on the ``minibus'' or other appropriations 
vehicles) would be disastrous for the entire West Coast salmon-
dependent economy, destroying fishing jobs from Southern California to 
Southeast Alaska! It would also abrogate U.S. responsibilities under 
the U.S.-Canada Pacific Salmon Treaty to recover damaged Columbia River 
salmon stocks, potentially triggering another ``fish war'' with Canada 
such as we saw prior to the current Pacific Salmon Treaty.

    PCFFA and many other fishing industry and recreational fishing 
industry businesses, fishermen, conservationists, scientists, and 
citizens oppose H.R. 3144 because it would significantly weaken 
Columbia Basin salmon restoration efforts, just at the time when they 
need to be substantially strengthened, by:

    <bullet> Congressionally overturning and invalidating a May, 2016, 
            U.S. Federal Court decision finding that the old 2014 
            Federal Columbia River Power System (FCRPS) salmon 
            Biological Opinion was arbitrary and capricious and not in 
            accordance with the best available science, and instead 
            legislatively requiring all Federal agencies to return to 
            that obsolete and illegal 2014 plan--in other words, 
            legislatively mandating that the agencies must operate on 
            the basis only of pre-2014 obsolete and discredited 
            science.

      This is fundamentally anti-science.

    <bullet> Blocking a related April, 2017, Court decision that 
            provides much-needed protective measures like ``spill'' for 
            guiding fragile juvenile salmon and steelhead migrating 
            past the turbines of the Federal dams on the lower Snake 
            River and lower Columbia River--a mitigation measure that 
            actually, provably works. Current Sec. 506 of H.R. 5895 (or 
            its equivalent if in the ``minibus'' bill) tries to turn 
            the clock back to 2014 to prohibit ``spill'' of water 
            through the Columbia River dams to help young migrating 
            salmon survive by guiding them around and out of the way of 
            turbines at the dams.

      This is fundamentally anti-salmon and anti-jobs.

    This legislative end-run around both law and science simply seeks 
to congressionally ``lock in'' a failed 2014 status quo that was 
harming our region's iconic and economically valuable salmon and 
steelhead populations and the communities that rely upon them. These 
past flawed salmon policies have already wasted more than $15 billion 
on a series of insufficient measures that have failed to recover a 
single one of the 13 protected wild populations of salmon and steelhead 
in the Columbia Basin. That status quo is not working for anyone today, 
and a different approach was clearly necessary. An accelerated 
``spill'' program was part of that new approach.

    In point of fact, the current Court-mandated ``spill'' program has 
proven to be far more successful at increasing overall salmon survival 
through the Columbia River dams than anyone had predicted.\20\ As a 
result, 47 of the Pacific Northwest's most prominent regional fisheries 
scientists wrote to congressional policy makers on August 16, 2017, and 
stated:
---------------------------------------------------------------------------
    \20\ See: CSS (Comparative Survival Study Oversight Committee) 
2017. Documentation of experimental spill management: models, 
hypotheses, study design, and response to ISAB. May 8, 2017. 138 p., 
http://www.fpc.org/documents/CSS/30-17.pdf.

        ``In this letter, the undersigned scientists and fishery 
        managers reaffirm the benefits of spill for salmon and 
        steelhead of the Snake/Columbia River Basin, as an essential 
        interim measure awaiting a legally valid, scientifically 
        credible long-term plan. Specifically, we support an immediate 
        increase in spill levels to benefit Snake/Columbia fish, for 
        reasons described more fully below. Increased spill allows more 
        juvenile salmon to pass dams safely via spillways, rather than 
        passing through powerhouses or bypass plumbing. With existing 
        dams in place, spill offers the best potential to improve life 
        cycle survival.'' \21\
---------------------------------------------------------------------------
    \21\ Scientists' Letter to NW Policymakers, Re: Importance of 
``spill'' to salmon protections (08-16-17) at: https://tinyurl.com/
y8x5z2om.

    Ending this important, and now proven effective, mitigation 
practice by legislative fiat just throws one of our best salmon 
mitigation tools out the window. This would just promote more 
mitigation failures and puts that much more pressure on the other 
aspects of the Columbia River hydropower system to provide equivalent 
survival benefits they cannot easily provide. This provision is clearly 
---------------------------------------------------------------------------
bad for salmon and salmon jobs.

    On June 18. 2018, the president of the Western Division of the 
American Fisheries Society (AFS), the Nation's most prestigious 
scientific society for fisheries scientists and managers, wrote to 
members of the U.S. Senate considering H.R. 3144, and voicing AFS's 
concerns about the suppression of science that H.R. 3144 would mandate, 
stating:

        ``We write to express concern with H.R. 3144 which was 
        introduced by Rep. Cathy McMorris Rogers (R-WA), passed in the 
        House in April, and referred to the Senate Committee on 
        Environment and Public Works. The bill seeks to overturn 
        science-based judicial decisions associated with recovery, and 
        would likely imperil, several important Columbia River Basin 
        anadromous fish populations. H.R. 3144 would also unduly 
        suppress the evaluation of the full range of alternatives 
        available to recover these fish stocks based on the best 
        available scientific information.'' \22\
---------------------------------------------------------------------------
    \22\ American Fisheries Society Statement on H.R. 3144: https://
tinyurl.com/yd6t7po3.

    This legislative over-ride is all the more troubling when the 
need--and opportunity--for durable, better solutions is so urgent. The 
provisions of H.R. 3144 further divide us when we need to come 
together.
    Coastal salmon, fishing, and orca advocates are well aware how 
connected our communities are with those in the Columbia Basin. That 
means both our problems and our solutions are also shared. We stand 
ready to work with people in the Tri-Cities, and throughout the Inland 
Northwest, to craft shared solutions that help us make tough decisions 
to solve tough problems but in a manner that assures just transitions 
and leads all our communities forward. Fishing communities (whether 
commercial, recreational, or tribal) know what this is like. We have 
already made big sacrifices, have lost many thousands of salmon-based 
jobs, have experienced increased substance abuse and other problems 
that come with reduced opportunities and economic devastation. We know 
what that is like--and we don't wish it on anyone.
    It is wrong to pit honest, hard-working food producers--salmon 
fishermen and farmers--against each other. We all deserve a fair shake 
and opportunity to make a living and to pass on our trades to our 
children and the next generation. We need policies that bring people 
together, solve problems and create opportunity--not close out options.
    part 5--dealing with looming bpa insolvency: the need for a new 
                             business model
    There is no doubt that the Bonneville Power Administration (BPA) is 
in financial trouble. The problem, however, is that they are still 
acting out of an increasingly obsolete, hydropower-only business model. 
The organization must rethink its position in the midst of a glut of 
energy in the Northwest and the continued emergence of wind, solar and 
other non-hydro renewable energy sources that will inevitably play a 
far bigger role in the region's future as they become more cost-
competitive and as fossil fuel powerplants are finally phased out.
    A very insightful analysis of BPA's current financial crisis is 
contained in a recent study by Rocky Mountain Econometrics titled: The 
Bonneville Power Administration 2018: Threatened, Endangered, or on the 
Brink of Extinction? \23\ The authors of that study also point out that 
one of the biggest drains on BPA's coffers are the four Lower Snake 
River dams (LSRD), which today can run only at a substantial economic 
loss. Since 2009, BPA has not needed a single kilowatt of LSRD energy 
to meet contracted customer demand. Wind energy alone has already 
replaced all LSRD hydropower three times over.
---------------------------------------------------------------------------
    \23\ Available from: http://www.rmecon.com/examples/
BonnevillePower%20May%202018.pdf.

    There is much misinformation (and considerable mythology) about the 
economic importance of the four Lower Snake River Dams (LSRD's). These 
---------------------------------------------------------------------------
are the actual facts:

    It is often stated incorrectly that removing them would mean the 
supposed ``loss of 3,000 megawatts of power production.'' While it is 
true that the combined maximum ``nameplate capacity'' of the four LSRDs 
is 3033 MW, to actually produce that amount of power would require all 
24 turbines operating continuously every hour of every day for the 
entire year, which even under ideal conditions is an impossibility. In 
practical operation, their actual average power production over the 
past 17 years has only been 943 MW per year, or just 31 percent of 
capacity, most of which is produced during spring run-off when both 
demand and prices for power are at their lowest.

    As far as the Lower Snake Dams benefits in terms of river 
transportation (none of which benefits BPA), over the past 20 years, 
total Lower Snake River freight volume declined nearly 70 percent. 
Lower Snake River reservoirs no longer transport logs, lumber, paper, 
pulp, pulse or petroleum. Container shipping is zero. Grain volume has 
declined 45 percent. The last dredging needed to keep open the Port of 
Lewiston cost taxpayers over $10 million. Finally, barge traffic on the 
LSR reservoirs has been declining for over 20 years, and every barge 
that leaves the Port of Lewiston now carries a taxpayer subsidy of at 
least $25,000.
    This analysis is explained in more detail in a separate economics 
monograph from Rocky Mountain Econometrics, titled: Bonneville Power 
Administration and the Lower Snake River Dams: The Folly of 
Conventional Wisdom.\24\ We commend your attention to that report and 
other citations in this testimony.
---------------------------------------------------------------------------
    \24\ Available from: http://www.rmecon.com/examples/
BPA%20&%20LSRDs%206-5-18.pdf.
---------------------------------------------------------------------------
    While some claim that the dams provide stability for the grid for a 
few days every year, a recent study has demonstrated that we could have 
a far more stable grid (and even replace all the power the dams 
generate) with reliable and clean renewable energy, for just over a 
$1.00/month for Northwest ratepayers. The cost is likely to be even 
lower as prices for wind, solar, and storage technologies continue to 
drop below the conservative cost assumptions in the study.\25\
---------------------------------------------------------------------------
    \25\ Lower Snake River Dams Power Replacement Study: Assessing the 
Technical Feasibility and Costs of Clean Energy Replacement Portfolios. 
NW Energy Coalition (March 201). Available at: https://nwenergy.org/
featured/lsrdstudy.

---------------------------------------------------------------------------
                                 ______
                                 

    Mr. Lamborn. OK. Thank you.
    Mr. Rich, you are now recognized for 5 minutes.

STATEMENT OF ROB RICH, VICE PRESIDENT, MARINE SERVICES, SHAVER 
            TRANSPORATION COMPANY, PORTLAND, OREGON

    Mr. Rich. Chairman Lamborn, Representative McMorris 
Rodgers, and Representative Newhouse, thank you very much for 
this rare opportunity to get to be in-district here and to have 
a panel such as this get to share the expertise and the 
background of the operational views of the river, some 
incredible information shared.
    I work for Shaver Transportation Company. We are one of the 
many barge lines that work the Columbia-Snake River System from 
Astoria, Oregon all the way to Lewiston, Idaho, a 465-mile deep 
draft system up to Vancouver, Washington, a shallow draft barge 
system all the way to Lewiston. As we are all aware, they 
transit through eight navigation locks at the Federal 
facilities, four on the Columbia River system and four on the 
Lower Snake River system.
    I am also fortunate enough to be the current president of 
the Pacific Northwest Waterways Association, and we represent a 
wide variety of transportation, agricultural, and port 
interests along our coast and up our Columbia-Snake River 
System. Again, very thankful to be able to be here today.
    We are now a sixth-generation, family-owned company. When I 
think of how our company, amongst many others here on the 
river, relate to the agricultural interior, Representative 
McMorris Rodgers, you mentioned you are a fifth-generation 
family, and that goes back a long way. In other words, there 
has been a lot of change. There has been a lot of adjustment 
made in the work that your family has done, if they have had 
the exposure to agriculture, as our family has had, in marine 
transportation on the river.
    I think of the 1,500 ships a year that cull the Columbia 
River system. For many of us in the upper reaches here, we 
don't get to see those ships, but we get to see the benefit of 
those ships culling the lower river, and that is the export of 
agriculture from this area.
    There are 27 river elevators that receive wheat by truck 
from the inland to load barges between the Dalles and the port 
of Lewiston/Clarkston. So, there is a lot of barging activity 
that goes on on the river, in any given year 1,200 to 1,500 
commercial barge tows a year transiting the river. And as I 
mention that number, it sounds like a pretty big number, but 
you are running about three, four, maybe five a day, going up 
and down the river. That is departing from Vancouver, kind of a 
silent service that sees an incredible amount of cargo moved on 
the river.
    We are a dual-feed barge and rail system. When I mentioned 
the ships that cull the lower river, the majority of them are 
taking exported agricultural products out of our region here, 
also receiving those products by rail. Forty percent of the 
wheat that is exported out of the Number one wheat export 
terminal in the United States--terminal meaning the Columbia 
River export terminals down-river--of that, 40 percent is moved 
by barge from the inland, 60 percent by rail. Where you have 
barge and rail, you have competition. Where you have 
competition, you have competition for work that creates a 
better balance for shippers and gives opportunities.
    Though opportunities in the Snake River Basin as far as 
wheat exports go, not so much. If you are a wheat producer in 
Whitman County, if you are a wheat producer in Columbia County, 
you are shipping by barge. That is your option. There is not a 
short-line railroad for you to go to. You are not going to be 
moving to trucking. If trucking was more efficient than rail, 
if it was more efficient than barging, it would be trucked all 
the way to the elevator down in Portland, a 600- or 700-mile 
round trip. That is not what we see.
    When it comes to trucking, you are looking at 149 miles for 
a gallon of diesel to move a ton of fuel. For marine 
transportation, inland marine transportation for barging 
interests, you are looking at 576 miles. I can't find a more 
valued reason for keeping barging in effect. If we are 
concerned about the volume of fuel that is used, the volume of 
emissions that are going into our air, inland barging is 
certainly the most environmentally responsible way to go.
    I am going to end with a little written piece here that I 
put together. I have given you a lot of facts and figures, but 
I just want to leave you with a little piece of heart. As a 
multi-generational, family-owned company, we directly relate to 
the family farm producers and shippers that we serve here in 
the inland Northwest. These families, our company, and the 
river system we know today have grown steadily and sustainably 
into the primary economic driver of our trade-dependent 
economy. From the family farm producers of eastern Washington 
and Idaho who have no other access to the Pacific Rim markets 
but through barging, to our crews that depend on our jobs for 
their livelihood, it is with great respect and pride that we 
serve the Columbia River system.
    Again, I thank you for this opportunity to share, and I 
look forward to questions later on.

    [The prepared statement of Mr. Rich follows:]
    Prepared Statement of Robert D. Rich, Vice President of Marine 
                    Services, Shaver Transportation
    Mr. Chairman and members of the Committee, good morning. My name is 
Rob Rich, and I am the Vice President of Marine Services for Shaver 
Transportation. I have spent 39 years working on the Columbia Snake 
River System since 1979.
    I also serve the current president of the Pacific Northwest 
Waterways Association, or PNWA. PNWA is a non-profit trade association 
that advocates for Federal policies and funding in support of regional 
economic development. Our membership includes over 130 public ports, 
navigation, transportation, trade, tourism, agriculture, forest 
products, energy and local government interests in Washington, Oregon 
and Idaho. I represent both Shaver and PNWA here today, and appreciate 
the opportunity to provide the perspective of the navigation community 
in the Northwest as it relates to the importance of the Columbia Snake 
River System.
                  background on shaver transportation
    Shaver is now a 6th generation, 138-year-old, family-owned tug and 
barge line. We are the oldest continuously operating tug and barge line 
on the West Coast.
    With a staff and crew of 110 employees, we operate a fleet of 15 
tugs and 20 grain barges on the Columbia Snake River System, with over 
$9M in payroll. Shaver handles 40 percent of all barged wheat from the 
27 river elevators serving the inland empire from The Dalles, Oregon to 
Lewiston, Idaho. This represents approximately 500 barge loads of wheat 
at 120,000 bushels per barge shipped.
    Shaver has built 10 of the last 12 new grain barges added to the 
river system since 1996, all told a $35M investment. We also have 
increased our upriver barging tug fleet by 40 percent since then, going 
from three to five tugs with an investment of $10M.
             background on the columbia snake river system
    The Columbia Snake River System is essentially a river highway. It 
includes our 105-mile deep draft Columbia River channel from Astoria at 
the mouth of the river at the Pacific Ocean all the way to Portland, 
Oregon. From there, a 360-mile inland barging channel stretches from 
Portland to Lewiston, Idaho, with a series of eight locks along the 
way. Those dams are why we are here today, and I could not be more 
proud to talk about the benefits they provide to our region and the 
Nation.
    The Columbia Snake River System as a whole moves over 50 million 
tons of cargo worth over $24 billion. The inland portion of the system 
helps to feed our deep draft export gateway, with over 9 million tons 
of cargo moving through the Columbia and Snake River dams.
    This river system is the Nation's Number one wheat export gateway. 
Over 50 percent of the Nation's wheat exports moves through our river 
system. Barge lines operating on these rivers support over 1,200 barge 
tows annually, with the standard grain tow consisting of four barges, 
totaling 15,000 tons of wheat. Each four-barge grain tow represents 
over $3M in Inland Empire wheat producer income. Adding to this, a rail 
to barge transfer station is being constructed at Boardman, Oregon to 
shortstop wheat railed from the Midwest, adding to our system's value 
to producers located many states away.
    Barging through the four Snake River dams is a particularly 
critical transportation link for our region. Nearly 10 percent of all 
U.S. wheat exports moves through just those four projects, destined for 
overseas markets. In 2014 alone, over 4.3 million tons of cargo was 
barged on the Snake River. It would have taken 43,610 rail cars to 
carry this cargo, or over 167,000 semi-trucks, with increased emissions 
and increased safety risks, all at a higher cost to the farmer and 
shipper.
    Our barging system also safely and responsibly transports millions 
of gallons of refined petroleum products from Portland to the Tri-
Cities, thousands of tons of wood products to downriver mills, as well 
as containerized solid waste, aggregates for concrete and asphalt 
plants, and scrap steel from Burbank, Washington to Portland, Oregon 
for export. In fact, a large portion of the diesel and gasoline used 
right here in the Tri-Cities is barged to Pasco and trucked out to our 
local gas stations. At certain times of the year, this can be up to 50 
percent of the fuel this area puts in our vehicles. In addition, Top of 
Form fertilizer is barged into this area to grow potatoes, apples, 
grapes and the many other crops prized in our Nation and overseas.
    As you may be aware, there continues to be a small but vocal 
minority in our region who advocate for removing the four Lower Snake 
River dams. These four dams are among the most advanced, fish-friendly 
projects in the entire country, and do not block access for endangered 
salmon runs. In fact, juvenile fish survival rates past each of these 
dams is between 95 percent and 97 percent, which is higher than what is 
seen in some undammed rivers. Major improvements in fish ladders, dam 
design, optimized river flow, and habitat restoration (all paid for by 
revenues from the Snake and Columbia River dams) have resulted in 
improvements to salmon returns. The time it takes fish to pass through 
the dams is also the quickest it has been since the dams were installed 
and continues to decrease with each new improvement.
    Northwest ports and navigation interests have always strongly 
supported robust salmon recovery efforts that preserve the multiple 
uses of the river system. We believe, like most in the scientific 
community, that salmon runs have been affected by a variety of factors. 
A commitment to improving all factors affecting the fish, including 
hydropower, habitat, harvest, and hatcheries, is necessary for listed 
species to recover. Extreme measures like dam breaching have been 
studied and rejected numerous times over the last 20 years. Mother 
Nature will always throw us some curve balls, but the trend lines for 
our listed fish species over the last 10 years demonstrates the success 
of regional collaboration on fish passage, habitat, and other river 
improvements.
    I've given you a lot of facts and figures, but this is what I want 
to leave you with. As a multi-generational family-owned company, we 
directly relate to the family farm producers and shippers we serve here 
in the Inland Northwest. These families, our company, and the river 
system we know today has grown steadily and sustainably into the 
primary economic driver of our trade dependent economy. From the family 
farm producers of eastern Washington and Idaho who have no other access 
to the Pacific Rim markets but through barging, to our crews that 
depend on our jobs for their livelihood, it is with great respect and 
pride that we serve the Columbia Snake River System.

    Thank you for the opportunity to testify. I welcome any questions 
you may have.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    Vice Chairman Oatman, you are now recognized for 5 minutes.

 STATEMENT OF THE HON. McCOY OATMAN, VICE CHAIRMAN, NEZ PERCE 
                      TRIBE, LAPWAI, IDAHO

    Mr. Oatman. Thank you. It is an honor and a privilege to be 
before you here, Chairman and Committee members. My name is 
McCoy Tamoody Oatman, and I serve as the Vice Chairman for the 
Nez Perce Tribe. I have served on Council for 10 years now.
    You guys have my written testimony, but the Nez Perce 
people are a people of the heart. So, being here today, I have 
to speak from my heart. I come from a treaty signer, Old Chief 
Looking Glass. In 1877, he signed the treaty, and he actually 
rode all the way back from buffalo country to Walla Walla to 
ensure that the treaty was adequate.
    I come from seven generations from him, and during the 
treaty time he said that I am looking out for those that are 
not yet here, those that are unborn, so I would like to think 
that his foresight and knowledge, and that of the other treaty 
signers as well, were looking out for me and the future 
generations.
    I understand what you guys are trying to do for your 
constituents and for those that are here today, and I am here 
to speak for those that are not here yet, those that are yet 
unborn, and to ensure that they have a way of life past the 
time that I am here.
    There are only 3,500 or so Nez Perce that walk this earth. 
So, if we ourselves were a fish species, we would be considered 
endangered. We deal with a high rate of diabetes, heart 
disease, and a lot of that goes back to our diet, a lot of 
processed food and things that our bodies were not able to 
handle.
    Salmon play an integral part in that, in how we live. 
Traditionally, Nez Perce, we used to bury just right off the 
streams, up on the hillsides, and we would bury in rock. And 
the reason we would bury ourselves in the rock is so that when 
the water came through and it washed our bodies back into the 
river system, and as well know how to fish, know how to get 
home. Well, it is by their scent.
    So, we would provide ourselves--we would be part of that 
life cycle and be nutrients for the salmon, and also provide 
them a way of how do they get home.
    There have been mentions of other tribes. There are the 
accords that the other tribes signed. Well, the other tribes 
don't live above all these dams, and the Nez Perce do, so it is 
about that we have to continue to fight. When Lewis and Clark 
came through, Old Looking Glass' father's name was Wyakaikt, 
and he gave Lewis and Clark a token that they would be able to 
pass through the Columbia system. And then when he passed, Old 
Looking Glass' son was born. But he got his name because Lewis 
and Clark gave him a medallion. After that, he wore that 
medallion and he became known as Looking Glass.
    His son, Young Looking Glass, was the one that was in the 
war of 1877, and I am a descendant of his brother, who made it 
all the way into Canada when we were chased by the cavalry, and 
then they come back to Idaho, and that is why I am able to be 
here today.
    So, this hearing is really important. It is really 
important to hear from all parties, but also in particular from 
the Nez Perce, the ones that have been here for tens of 
thousands of years that have been recorded. I want to continue 
that future for my people, for my children. I have three young 
daughters--6, 3, and 1. It is my battle here today to ensure 
that they have a future, that there will be fish in the waters 
for them.
    We have our own scientists. We have our own biologists that 
have been part of this process, that have been part of the 
meetings that deal with spill. We want to continue in that 
collaborative fashion. We have had our day in court, and so we 
understand what others have been saying about the courts 
running the system. Well, sometimes there is no other place for 
us to go, if people aren't going to listen to us as a people 
that have been here for so long, that understand these systems.
    As Mr. Hastings mentioned earlier about buffalo, I serve on 
the interagency buffalo management plan, and those are the last 
pure genetic species of buffalo in Yellowstone. The other 
buffalo have been bred with cows, and so it is not really a 
fair comparison. We call those ``beefalo.'' They are not 
actually referenced as buffalo where we come from.
    I thank you for allowing me this time to come and talk to 
you, and to talk to the public as well, and hopefully 
nationally people will understand where we are coming from as 
Nez Perce people. We are just trying to ensure that we have a 
river system that is going to support those salmon and that 
will also support the future generations. Thank you.

    [The prepared statement of Mr. Oatman follows:]
  Prepared Statement of Vice-Chairman McCoy Oatman, Nez Perce Tribal 
                          Executive Committee
    Honorable Chairman and members of the Committee, as Vice-Chairman 
of the Nez Perce Tribal Executive Committee, I would like to thank you 
for the opportunity to provide testimony on behalf of the Nez Perce 
Tribe (Tribe) for this oversight hearing by the Committee on Natural 
Resources (Committee) regarding the Federal Columbia River Power System 
(FCRPS) and its impact in the Pacific Northwest. The Tribe understands 
the premise of the hearing is an appreciation for the current system 
and the economy that has grown around it. The Tribe, however, 
challenges the Committee to look beyond memorializing the status quo, 
and instead conduct an honest examination of all ideas and concepts 
that can restore the health of the Columbia Basin such as providing 
spill, addressing impacts of climate change, examining dam removal, 
restoring habitat, decreasing carbon emissions, and furthering 
scientific study.
    The Nez Perce Tribe is a federally-recognized Indian tribe with 
treaty-reserved fishing, hunting, gathering, and pasturing rights 
throughout the Columbia River Basin. The Tribe's traditional lands and 
waters encompass what are today northeast Oregon, southeast Washington, 
north-central Idaho, and western Montana. The Tribe engages in fishing, 
hunting, gathering, pasturing, and associated activities, and in the 
co-management of resources, within much of this area. The FCRPS system 
has had, and continues to have, a uniquely harmful impact on the Nez 
Perce people. The Tribe's fishermen fish in the mainstem Columbia River 
where four of the dams are located while the Tribe's Reservation and 
many of the Tribe's other usual and accustomed fishing places lie above 
the four dams on the lower Snake River.
    Despite the impacts from the current operation of the FCRPS, the 
Tribe's treaty-reserved fishing right and fisheries within the Columbia 
Basin continue to be critically important to the Tribe in maintaining 
and practicing its culture, economy, and ways of life as it has done 
for thousands of years. In addition, implementation of treaty fisheries 
is consistent with the Tribe's legally enforceable treaty-reserved 
fishing right and resources and with the United States' treaty and 
trust obligations and responsibilities to the Tribe.
    The importance of salmon and steelhead to the Tribe and to the 
Pacific Northwest cannot be overstated. The Tribe is deeply committed 
to restoring salmon and steelhead in the Columbia and Snake Rivers to 
healthy, harvestable levels for all citizens of the Northwest and to 
fairly sharing the conservation burden.
    The Tribe has long advocated before Congress and through the 
Federal court system for the FCRPS to be managed in a way that 
minimizes adverse impacts on fish and the Basin. As a result, the Tribe 
disagrees with proposed legislation or any language that would restrict 
the use of Federal funds for dam removal or studies related to dam 
removal, or that would circumvent Federal court orders related to the 
operation of the FCRPS.
    For example, H.R. 3144 attempts to short-circuit the Federal 
judiciary and Federal appellate process with respect to providing 
additional spill to protect fish. The Federal District Court for the 
District of Oregon has issued rulings on the dams that make up the 
FCRPS only after reviewing thorough and voluminous briefing and expert 
scientific information presented by the Federal Government, the states 
of Oregon, Washington, Idaho, and Montana, tribal sovereigns including 
the Tribe, and fishing, utility, conservation, and irrigation 
interests.
    The District Court's May 4, 2016 decision held that the 2014 
Biological Opinion on the operation of the FCRPS was arbitrary and 
capricious under the Endangered Species Act (ESA), and that the Federal 
action agencies' failure to prepare an environmental impact statement 
(EIS) on the implementation of that Biological Opinion violated the 
National Environmental Policy Act (NEPA). The Court observed that 
``Perhaps following the processes that Congress has established in the 
National Environmental Policy Act and in the Endangered Species Act 
finally may illuminate a path that will bring these endangered and 
threatened [salmon and steelhead] species out of peril.'' None of the 
parties pursued an appeal of the District Court's ruling. In contrast 
to H.R. 3144, the Federal agencies are indeed actively assuming their 
responsibilities under NEPA, engaging with the public, and with the 
region's sovereigns.
    After the Federal agencies refused to implement any additional 
protective actions for salmon and steelhead during the ordered ESA and 
NEPA processes, the state of Oregon, supported by the Tribe and several 
fishing and conservation groups in the Pacific Northwest, requested 
interim protection for salmon and steelhead in the form of spill in the 
springtime that would be implemented only in those years where such 
levels of spill would not naturally occur simply as a result of runoff. 
The Oregon District Court did not order spill to begin until the spring 
2018 migration season, ensuring that ``the parties and experts in the 
region ha[d] sufficient time to consider an appropriate protocol and 
methodology for spill at each dam, incorporating the most beneficial 
spill patterns.'' Tribal Fisheries Department staff were among those 
experts in the region and were instrumental in helping craft spill 
operations that were feasible and met the intent of the Court's 
direction. The District Court's March 27, 2017 order went on to state 
that it expects that ``the parties, amici, and other regional experts 
will work together to reach consensus.'' No party sought a stay pending 
appeal or an expedited appeal of the order. And again, the Federal 
action agencies and the region's state and tribal sovereigns have been 
actively engaged in, and are making considerable progress in, 
developing spill implementation plans.
    H.R. 3144 would short-circuit and subvert Federal judiciary and 
Federal appellate processes and would undermine collaborative efforts 
that the region's sovereigns and the Federal Government are presently 
engaged in.
    Second, H.R. 3144 attempts to short-circuit the full consideration 
of all alternatives to redress the impacts of the Federal FCRPS dams on 
salmon and steelhead--including breaching the four lower Snake River 
dams. The bill, in Section 4, would prohibit the identified agencies 
from even studying removal of the four lower Snake River dams through 
any EIS process without additional congressional authorization. This 
would undermine the existing EIS process proceeding now under existing 
NEPA law that the Court has ordered and that the Federal agencies are 
presently engaged in with the public and the region's sovereigns.
    Again, as the District Court observed, ``Perhaps following the 
processes that Congress has established in the National Environmental 
Policy Act and in the Endangered Species Act finally may illuminate a 
path that will bring these endangered and threatened [salmon and 
steelhead] species out of peril.''
    The Tribe has also opposed similar language proposed in the Fiscal 
Year 2019 appropriations package for Energy and Water Development, 
legislative branch, and Military Construction and Veterans Affairs. 
Section 506 of General Provisions of H.R. 5895 limits the use of Fiscal 
Year 2019 funds to operate the FCRPS hydroelectric dams in a manner 
that is inconsistent with the Army Corps of Engineers' 2017 Fish 
Operations Plan. The Tribe opposes this provision because it will 
prevent implementation of District Judge Simon's March 27, 2017 spill 
injunction order that the Tribe advocated for to limit the impacts of 
the current system operations on fish.
    These legislative ``fixes'' are not solutions to the current issues 
but instead are roadblocks to ultimately finding answers to the issues 
created by the operation of the FCRPS that will work for everyone. They 
also cause unnecessary division between stakeholders and distract from 
productive conversations.
    The current history of the FCRPS in the Pacific Northwest is 
dwarfed by the ancient history and existence of the Columbia River 
Basin prior to the FCRPS' construction. The current dynamic between the 
economy and the FCRPS is not natural, nor is it the only path forward. 
It is based on assumptions that should be challenged and explored.
    There are ways for all people in the Pacific Northwest to thrive 
and be successful beyond an unexamined status quo. Pre-FCRPS history 
shows a thriving and prosperous economy and way of life for both Nez 
Perce and non-Nez Perce. The Nez Perce have had to adjust their way of 
life to accommodate the modern status quo. However, that is no reason 
to stop questioning and studying and then implementing better ways. The 
legislative actions proposed to Congress are attempts to end 
examination and exploration of better ways. They are a head-in-the-sand 
approach at an exact moment in time when we should all be fearlessly 
looking for better solutions. We encourage you to demonstrate your 
leadership by helping to support current efforts to find better 
solutions, not hide from them. The Tribe would be happy to continue 
dialogue with members of this Committee and the Northwest Congressional 
Delegation to search for those new solutions.

    Thank you for your time today.

                                 ______
                                 

    Mr. Lamborn. Thank you, Vice Chairman.
    We will now hear from Mr. Heffling for 5 minutes.

  STATEMENT OF JACK HEFFLING, PRESIDENT, UNITED POWER TRADES 
            ORGANIZATION, WEST RICHLAND, WASHINGTON

    Mr. Heffling. Chairman Lamborn, Congressman Newhouse, and 
Congresswoman McMorris Rodgers, thank you for this opportunity 
to testify.
    The United Power Trades Organization represents the trades 
and crafts non-supervisory employees at the U.S. Army Corps of 
Engineers hydroelectric projects in Washington, Oregon, Idaho, 
and Montana. These hydroelectric projects make up a portion of 
the Northwest Division of the U.S. Army Corps of Engineers and 
are divided up into the Portland, Seattle, and Walla Walla 
Districts. The Walla Walla District includes four hydroelectric 
projects on the Lower Snake River that seem to be the target of 
most dam removal proponents.
    The Northwest Division of the Corps of Engineers is a major 
employer and a huge contributor to the economy of the Pacific 
Northwest, with an annual budget of over $3 billion and a 
professional workforce of nearly 4,800. The members of the 
United Power Trades Organization include the men and women who 
maintain and operate the equipment at the hydroelectric 
projects and number over 600. But this number doesn't include 
the engineers, administrators, biologists, park rangers, and 
the hundreds of others whose jobs are directly connected to the 
dams, nor does it include the many private companies who, by 
contract, also rely on the existence and operation of the dams 
for their employment.
    High-technology firms such as Apple, Amazon, Intel, Google, 
and Facebook have located facilities in the Northwest because 
of the availability of reliable, clean hydropower creating jobs 
and boosting economies.
    The dams of the Columbia-Snake River System are multi-
purpose in that they provide hydropower, flood control, 
navigation, irrigated agriculture, and recreation. The benefits 
of the dams cannot be measured by megawatts alone but in the 
overall value they provide the region.
    Hydropower is clean, renewable, and plays a significant 
role in Pacific Northwest power production. Hydropower supports 
wind and other renewables by providing the peaking power 
necessary to meet demand. Hydropower turbines are capable of 
converting 90 percent of available energy into electricity, 
which is more efficient than any other form of generation.
    The cost to operate the Snake River dams is about $65 
million per year, which is relatively inexpensive considering 
the return on this investment is over $200 million annually.
    Hydropower is not only measured by the total energy 
produced. It also stabilizes the transmission system and keeps 
it reliable. High-voltage transmission lines require a steady 
back-and-forth electrical flow, and flexible hydro generation 
meets the changing conditions to ensure reliability.
    Navigation is a major benefit of the Columbia-Snake River 
system of dams. They provide 365 miles of navigable water from 
Portland/Vancouver to Lewiston. Every year, more than 50 
million tons of commercial cargo moves up and down the Columbia 
and Snake Rivers between Astoria, Oregon and Lewiston, Idaho.
    A study by the Columbia River ports identified 40,000 port-
related Northwest jobs. Firms that ship cargo via the Columbia 
River employ an additional 59,000 workers annually. Cruise 
ships carry 15,000 passengers a year on 5- to 7-day tours on 
the river, bringing an estimated $15 million to $20 million in 
revenue to local economies.
    Irrigated agriculture is the economic powerhouse of the 
West, with annual revenues of $17 billion and more than 100,000 
employees. It is the dams that provide the water for irrigation 
and, as a direct result, helps sustain the economy of the 
Northwest.
    The Walla Walla District employs over 1,100 people, with 
over 400 working at the hydroelectric projects. In addition to 
being a major employer, the District pumps millions of dollars 
into the local economies. The Fiscal Year 2017 budget for the 
District was about $240 million.
    Removal of the Snake River dams would be detrimental to a 
large amount of irrigated agriculture, would eliminate barging 
from Pasco to Lewiston, Idaho, and would damage the electrical 
infrastructure. Removal of the dams would cost thousands of 
jobs. Jobs at the dams themselves would be lost, contracting 
jobs would be lost, farm jobs would be lost, and jobs related 
to the barging of commodities would be lost. The impact on the 
region would be devastating.
    As president and spokesman for the United Power Trades 
Organization, I can say our organization overwhelmingly 
supports H.R. 3144, hydropower, and the dams of the Lower Snake 
River. But I am not just a dam employee representative. I am a 
senior power plant operator and have been working at one of the 
Lower Snake River dams since 1986. As a power plant operator 
for over 30 years, I actually understand how the new 
technologies installed have benefited fish. The dams have been 
upgraded extensively, at great cost, and the improvements work. 
Since removal of the dams would provide no benefit to fish 
survival, it makes absolutely no sense to continue studying or 
considering a non-solution.

    Thank you again for the opportunity to testify.

    [The prepared statement of Mr. Heffling follows:]
Prepared Statement of Jack W. Heffling, President, United Power Trades 
                              Organization
    Thank you for this opportunity to testify. The United Power Trades 
Organization represents the Trades and Crafts non-supervisory employees 
at U.S. Army Corp of Engineers hydroelectric projects in Washington, 
Oregon, Idaho and Montana. These hydroelectric projects make up a 
portion of the Northwest Division of the U.S. Army Corps of Engineers 
and are divided up into the Portland, Seattle and Walla Walla 
Districts. The Walla Walla District includes four hydroelectric 
projects on the lower Snake River that seem to be the target of most 
dam removal proponents.
    The Northwest Division of the U.S. Army Corps of Engineers is a 
major employer and a huge contributor to the economy of the Pacific 
Northwest with an annual budget of over $3 billion and a professional 
workforce of nearly 4,800. The members of the United Power Trades 
Organization include the men and women who maintain and operate the 
equipment at the hydroelectric projects and number over 600. But this 
number doesn't include the engineers, administrators, biologists, park 
rangers and the hundreds of others whose jobs are directly connected to 
the dams, associated lands and reservoirs. Nor does it include the many 
private companies who by contract, also rely on the existence and 
operation of the dams for their employment.
    High technology firms such as Apple, Amazon, Intel, Google and 
Facebook have located facilities in the Northwest because of the 
availability of reliable, clean hydropower, creating jobs and boosting 
local economies. Traditional energy-intensive industries, such as 
timber, paper, chemical, food processing, aluminum and manufacturing 
all representing hundreds of thousands of Northwest jobs, continue to 
rely on low-cost hydro to stay in business and prosper.
    The dams of the Columbia-Snake River System are multi-purpose in 
that they provide hydropower, flood control, navigation, irrigated 
agriculture and recreation. The benefits of the dams cannot be measured 
by megawatts alone but in the overall value they provide the region.
    Hydropower is clean, renewable and plays a significant role in 
Pacific Northwest power production. Northwest residents and businesses 
enjoy lower power bills when compared to other regions of the United 
States which is directly attributable to hydropower. The dams of the 
Columbia-Snake River System alone produce enough power to meet the 
needs of more than 13 million homes with the surplus exported, 
providing additional economic importance to the Northwest. Only 
hydropower has the instantaneous capability to meet peak demands and 
provide power for heat when temperatures are frigid or sustain power 
for cooling on exceptionally hot days. Hydropower costs much less to 
produce than any other source such as nuclear, coal or natural gas and 
is pollution free, with zero emissions. The firm power alone provided 
by the dams of the Columbia-Snake River System keeps close to 30 metric 
tons of CO<INF>2</INF> out of the air. This is similar to taking nearly 
6 million cars off the road.
    Hydropower is clean, carbon-free, renewable and reliable. Hydro 
supports wind and other renewables by providing the peaking power 
necessary to meet demand. Hydropower turbines are capable of converting 
90 percent of available energy into electricity, which is more 
efficient than any other form of generation. Even the best fossil fuel 
power plant is only about 50 percent efficient. Wind has about 30 
percent efficiency. After hydropower, 83 percent of the region's energy 
production is from fossil fuels coal or natural gas.
    Considering the four Lower Snake River dams alone, it would take 2 
nuclear, 3 coal-fired, or 6 gas-fired power plants to replace their 
annual power production. It would take 3 nuclear, 6 coal-fired, or 14 
gas-fired power plants to provide the peaking capacity of these four 
dams. It has been estimated that the cost to replace these dams with 
natural gas-fired generation would be $444 million to $501 million a 
year. It has also been estimated that it would cost $759 million to 
$837 million a year if these dams were replaced with a combination of 
wind, natural gas and energy efficiency. Electricity from the Northwest 
hydropower facilities typically cost 3 to 10 times less (per megawatt 
hour) than nuclear, coal and natural gas. It is also cheaper than wind 
and solar. The cost to operate the Snake River dams is about $65 
million per year which is relatively inexpensive considering the return 
on this investment is over $200 million annually.
    Hydropower is not only measured by the total energy produced. It 
also stabilizes the transmission system and keeps it reliable. High-
voltage transmission lines require a steady back and forth electric 
flow, and flexible hydro generation meets the changing conditions to 
ensure reliability.
    Navigation is a major benefit of the Columbia-Snake River system of 
dams. They provide 365 miles of navigable water from Portland/Vancouver 
to Lewiston, Idaho. Barging is the lowest cost, most fuel efficient and 
least polluting transportation mode. Each year, barging keeps 700,000 
trucks off the highways through the Columbia River Gorge. The facts 
speak for themselves. The Columbia-Snake River System is the Number one 
wheat export gateway in the United States and the third largest grain 
export gateway in the world, with over 10 million tons of wheat 
exported annually through Columbia River ports. It is the Number one 
barley export gateway in the United States. It is Number one in West 
Coast paper and paper products exports. It is Number one in West Coast 
mineral bulk exports and Number two in West Coast auto imports. Every 
year, more than 50 million tons of commercial cargo moves up and down 
the Columbia and Snake Rivers between Astoria, Oregon and Lewiston, 
Idaho. The Snake River averages 3.5 million tons of cargo per year 
valued at an average of over $1.5 billion.
    Navigation through the Columbia-Snake River System provides a vital 
transportation link for the states of Idaho, Montana, Oregon and 
Washington. The economies of these four states rely on the trade and 
commerce that flows up and down the most important commercial waterway 
of the Northwest. Navigation is fuel efficient. A ton of commodity 
goods can move 524 miles by barge on 1 gallon of fuel, compared to 202 
miles by rail and 59 miles by truck. The average barge can transport 
3,500 tons of wheat which would require 35 jumbo rail cars or 134 
trucks. The economic benefit of the Columbia-Snake River System cannot 
be doubted. A study by the Columbia River ports identified 40,000 port-
related Northwest jobs. Firms that ship cargo via the Columbia River 
employ an additional 59,000 workers annually. Cruise ships carry 15,000 
passengers a year on 5- to 7-day tours on the river, bringing an 
estimated $15 million to $20 million in revenue to local economies. A 
total volume of waterborne trade is expected to expand at an average 
annual rate of 1.7 percent per year through 2030.
    Irrigated Agriculture is the economic powerhouse of the West. The 
net value of irrigated agriculture to all western states is over $60 
billion. Net earned income from agricultural production in the three 
Northwest states exceeds $8 billion annually. Northwest states are the 
leading U.S. producers of apples, potatoes, raspberries, blackberries, 
asparagus, currants, hops, lentils, concord grapes, sweet cherries, 
spearmint and peppermint oil, pears, sweet corn, and frozen peas. All 
of these crops are grown on irrigated land. Northwest exports of 
irrigated agricultural products exceed $1.4 billion annually. Food 
processing in the Northwest adds another $6 billion in sales value just 
for fruit, vegetables and specialty products. Food processing is the 
largest manufacturing employment sector in the state of Idaho and the 
second largest in both Washington and Oregon. The net direct value to 
the economy of 1-acre foot of water, when used for irrigation is over 
$60 per acre-foot. The Columbia Basin Project alone supplies about 2.6 
million acre-feet per year. It is the dams that provide the water for 
irrigation and as a direct result help sustain the economy of the 
Northwest.
    Annual net earned income from agricultural production in the 
Northwest states exceeds $8 billion and Pacific Northwest food 
processing is the third-largest manufacturing sector, with annual 
revenues of $17 billion and more than 100,000 employees.
    The Walla Walla District employs over 1,100 people, with over 400 
working at the hydroelectric projects McNary, Ice Harbor, Lower 
Monumental, Little Goose, Lower Granite and Dworshak. In addition to 
being a major employer, the District pumps millions of dollars into the 
local economies. The Fiscal Year 2017 budget for the District was $240 
million with about 60 percent of this funding coming directly from the 
Bonneville Power Administration (BPA). The power produced by the 
District dams, like other projects in the Northwest, is sold by BPA 
who, in turn, direct funds the operation and maintenance of the dams, 
plus provides additional funding for major work. This means that over 
$100 million annually is provided the area economy as a result of the 
power sales of these District hydroelectric projects.
    Removal of the Snake River dams would be a detriment to a large 
amount of irrigated agriculture, would eliminate barging from Pasco to 
Lewiston, Idaho, and would damage the electrical infrastructure that 
relies on these generating units not only for power production, but for 
reactive support that helps to stabilize the electrical grid of the 
Northwest. While BPA markets power from 31 Federal dams, only the 10 
largest dams keep the Federal power system operating reliably through 
Automatic Generation Control (AGC) which includes the four Lower Snake 
River projects. Under AGC, when total generation in the power system 
differs from the total load being consumed, automatic signals go to 
these few dams to increase or decrease generation. This is especially 
critical when generating facilities are suddenly added or dropped from 
the system. Removal of the dams would cost hundreds if not thousands of 
jobs. Jobs at the dams themselves would be lost, contracting jobs would 
be lost, farm jobs would be lost as a result of a large decrease in the 
amount of irrigated agricultural lands, and jobs related to the barging 
of commodities would be lost. The impact on the region would be 
devastating.
    The fact is that science does not support the position that the 
lower Snake River dams need to be removed in order to aid in fish 
survival. Scientists using special acoustic tags planted in fish found 
that the survival rate of Idaho juvenile salmon reaching the ocean 
identical to migrating salmon that originate in the Yakima drainage in 
Washington. In other words, juvenile salmon passing through the four 
Snake River dams suffered no higher mortality rate than those that did 
not. Even more surprising is findings that show the survival rate of 
both Yakima and Clearwater fish was the same as survival measured in 
the Fraser River in British Columbia, a river with no dams. In 
addition, another finding from the research revealed that juvenile 
salmon transported by fish barges survived from Lower Granite Dam to 
the northern tip of Vancouver Island at five times the rate of fish 
that were not barged. This information strongly contradicts any claims 
by environmental groups that the removal of the dams is necessary for 
fish to survive and that barging juvenile salmon through the dams is 
ineffective.
    It is time to eliminate dam removal from the discussion on the best 
way to support migrating fish. Studies have shown that adult fish have 
no problem passing through the dams at extremely high survival rates. 
Studies have also shown that the vast majority of juvenile fish 
migrating downstream are near the surface, so screens at the intakes of 
generators are positioned to direct them into bypass channels where 
they are collected for barge transport or bypassed back to the river. 
Weirs are in place on the spillways that allow for spilling water 
directly from the surface, thus providing another effective bypass for 
juvenile fish traveling downstream. It is the existence of these 
spillway weirs that make any additional spilling unnecessary and, in 
fact, can have an adverse effect on fish due to the increase in 
dissolved gases that result when spilling from bays that don't have the 
spillway weir. Fish passage plans are in place at each facility and 
overseen by Federal and state biologists to assure that hydro plants 
are operated in criteria most advantageous to fish passage.
    ``The utter disappearance of the salmon fishery of the Columbia is 
only a question of a few years.'' That prediction was made by Hollister 
McQuire, Oregon Fish and Game Protector in '94. What makes this quote 
newsworthy is that it was made in 1894, long before the first dam was 
constructed on the Columbia-Snake River System. The decline of Columbia 
River salmon began in the 1800s and was originally attributed to two 
factors: overfishing and environmental degradation from such human 
activities as mining and logging. Millions of dollars have been spent 
during the last couple of decades studying the problem and millions 
more have been spent on making hydroelectric facilities as fish 
friendly as possible, even though studies have shown very little 
difference, if at all, between the decline of salmon runs on rivers 
with and without dams. Too much blame has been placed on the dams when 
it is obvious that no single factor caused the salmon decline.
    And no single factor will solve the problem. Solutions must look at 
all factors impacting salmon decline, including dam operations, fish 
harvest levels, hatchery practices, degradation of habitat where salmon 
lay their eggs and the impact of ocean conditions. R. Hilborn from the 
University of Washington was quoted as saying ``Any attempts to 
understand the impact of in-river action on survival will be confounded 
by changes in ocean conditions. The poor returns of Chinook salmon in 
the early 1990s are to a large extent almost certainly due to poor 
ocean survival, whether or not they encounter dams.'' My point here is 
that increasing and maintaining fish runs is a multi-faceted problem 
that requires solutions to many different factors. Since studies have 
shown that the survival rate of migrating fish is the same on rivers 
with dams as they are without, the focus should be on ocean conditions 
and their impact rather than dam removal which would provide no 
benefit.
    The dams have been upgraded extensively at great cost and the 
improvements work. Dam operation now maximizes attraction water for 
adult fish and improves downstream migration due to flow augmentation 
that also serves to cool the reservoirs during low water months. 
Rotating screens at the turbine intakes direct fish to bypass channels 
where they are collected for barging or bypassed back to the river. And 
spillway weirs are strategically placed to provide a gentle ``slide'' 
for juvenile fish to travel downstream unharmed. Since removal of the 
dams would provide no benefit to fish survival, it makes absolutely no 
sense to continue studying or considering a non-solution.
    The residents of the Northwest have made their opinion clear. The 
results of a poll administered in 2015 shows that three-quarters of the 
people recognize that hydropower generated by the Northwest dams is a 
renewable energy source. Forty-five percent agree hydropower is the 
region's most practical source for meeting energy needs, with wind 
trailing at 17 percent and solar at 9 percent. Two-thirds favor 
hydropower being declared a renewable resource by state legislatures 
and Congress, similar to wind and solar energy. A large and increasing 
majority (70 percent) agree that the dams on the Lower Snake River are 
critical to the Northwest's energy picture and 77 percent agree that it 
is critical that dams and salmon co-exist.
    As president and spokesman for the United Power Trades 
Organization, I can say our organization overwhelmingly supports 
hydropower and the dams of the Lower Snake River. But I am not only 
just dam employee representative. I am a Senior Power Plant Operator 
and have been working at one of the Lower Snake River dams, Lower 
Monumental, since 1986. As a power plant operator, I run the turbine 
generator units, the spill gates, plus the adult and juvenile fish 
passage equipment.
    As a power plant operator for over 30 years, I have personally seen 
all of the improvements made at our facility to increase fish survival 
and been the recipient of instructions to operate the dam in accordance 
with the fish passage plan or Biological Opinion (BiOp). Unlike most 
outside interests, I actually understand how the new technologies 
installed have benefited fish passage and how the BiOp works to 
maximize fish survival. Almost every operation performed requires 
adherence to the fish passage plan, including which generating units to 
run, at what power load they are operated at, what spill pattern to use 
and how much spill to release through those spill gates.
    It is troublesome to those of us that know what works to receive 
operating instructions that are not beneficial to fish and may even be 
detrimental. For example, it is a scientific fact that migrating 
juvenile fish travel close to the surface of the river. That is why the 
fish slides installed are so successful in providing a means that allow 
the fish a gentler transition from the pool at the top of the dam to 
that below. Rotating screens are installed in the intakes of all of the 
turbine generators that direct the fish into a collection channel where 
ultimately they can be loaded onto barges for transport or bypassed 
back to the river far below the dam. However, because of pressure from 
outside interests, additional spill is ordered that requires spill 
through spill gates that don't have the fish slides installed. This 
forces the fish down through restricted openings at the bottom of the 
spill gates which is not only harmful to fish in the transition but 
causes significant increases in supersaturation of nitrogen in the 
water resulting in gas bubble trauma.
    In addition, when fish are transitioned via spill, less are 
collected at each dam's fish facility for transport via the barge 
transport program which has proved highly successful. Fish transported 
by barge survive at five times the rate as those that traverse the 
river. Additional water spilled not only is detrimental to the fish 
because of the non-fish slide transition but this results in less water 
available for generation, less generating units running and less fish 
collected for transport via fish barge. Spilled fish are also more 
susceptible to predatory birds and fish that congregate below the 
spillway areas. More spill does not make sense economically in that 
generating revenues are lost, it doesn't help the fish, and may even 
have a negative effect on fish survival.
    The BiOp is working despite faulty non-scientific reports given by 
outside interests. The radical changes proposed make absolutely no 
sense. Fish returns are higher than what they were prior to the first 
dam built on the Columbia-Snake River System and although hatchery fish 
are returning in large numbers, natural fish return is increasing as 
well. Fish survival through the Columbia-Snake River dams are at levels 
that meet or exceed those on rivers that don't have dams.
    The current BiOp is the most science-based, comprehensive and 
expensive effort to restore and endangered species in the Nation. $1.6 
billion have been invested in new technologies and the eight Federal 
dams on the Columbia-Snake System and operational changes are helping 
young salmon survive at very high rates and helping adult fish return 
to their spawning grounds. This unprecedented and massive program has 
also restored more than 10,000 acres of habitat in the Columbia Basin 
that has been providing incredible results.
    Despite the plan's demonstrated success, environmental and 
commercial fishing groups continue to challenge the plan in court, as 
they have done for over two decades. These groups thrive on lawsuits 
and they will continue to sue, no matter what the facts say. They 
continue to press for extreme changes in dam operations, including 
requiring more spill which would increase Northwest energy costs and 
provide no additional benefit to fish.
    Recent misinformation provided by outside interests blame the dams 
for excessive water temperatures on the Snake River and claim the dams 
must be removed to restore acceptable conditions. In fact, the opposite 
is true. Snake River water temperature data from 1952-1957 shows the 
average high water temperature to be over 74 degrees. High water 
temperature is actually better controlled by reservoir regulation and 
supplemental discharge of cooler water upstream.
    It is true that record high temperatures in 2015 created a thermal 
barrier at the Lower Granite Dam fish ladder that impeded adult fish 
migration. This problem was fixed in 2016 with an ``intake chimney'' 
that provided cool water to the adult fish ladder.
    It has been proven that the dams and fish can co-exist. Historical 
data shows fish counts for all species has increased dramatically since 
counts on the Snake River began in 1975. For example, the 1975 fish 
count showed a total of 209 Sockeye passing through Lower Granite Dam 
in 1975. In 2014, that count was 3,219. In 1975, 28,460 Chinook passed 
through Lower Granite. The count was 195,167 in 2014. In 1975, 17,311 
Steelhead were counted passing through Lower Granite Dam. The count was 
164,106 in 2014.
    Yes, the last couple of years has shown a decline in returning 
fish. However, due to ocean conditions, there have been declines in 
numbers of fish everywhere on the Pacific Coast including Alaska. A 
warming trend in the Pacific has been the culprit and can't be blamed 
on the dams. Recent data shows that warming trend may be reversing so 
runs will again return to historic numbers as ocean conditions improve.

    Thank you again for this opportunity to testify before the 
Committee.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    Ms. Green, you are now recognized for 5 minutes.

STATEMENT OF MARCI GREEN, PRESIDENT, WASHINGTON ASSOCIATION OF 
              WHEAT GROWERS, RITZVILLE, WASHINGTON

    Ms. Green. Thank you, Chairman Lamborn, Congressman 
Newhouse, and Congresswoman McMorris Rodgers. I am a sixth-
generation farmer from Fairfield, Washington. My sons are 
seventh-generation wheat farmers. On our farm we grow wheat, 
blue grass seed, dry peas, lentils, and garbanzo beans.
    I am also president of the Washington Association of Wheat 
Growers, a non-profit trade association that is comprised of 
1,700 members.
    Thank you for the opportunity to testify about the 
importance of the Columbia-Snake River System, which provides 
significant transportation and navigation benefits to our 
region. The river system is a 465-mile river highway that 
provides farmers and other producers as far as the Midwest 
access to international markets.
    The Columbia-Snake River System is the top wheat export 
gateway in the United States, transporting over 50 percent of 
all U.S. wheat to markets overseas. Eleven states export 
through our rivers, which moved over 12 million tons of wheat 
in 2016. Over $500 million has been invested into Columbia 
River grain export terminals, and barge unloading capacity has 
been expanded by over 21 percent in expectation of increased 
sales in Asian markets. Besides grain, nearly $3 billion worth 
of commercial cargo is moved across the river system.
    As wheat farmers, we are dependent upon the barging system 
to transport our products to export. Barging is one of the 
lowest cost, most environmentally friendly modes of 
transportation we have to get our wheat to major grain 
elevators in Portland, which is the gateway to world markets. A 
typical four-barge tow moves the same amount of cargo as 140 
rail cars or 538 trucks using just a fraction of the fuel.
    Personally, transporting my crop to the market is a notable 
cost. Currently, I pay 80 cents a bushel to transport my wheat 
to ports. Even if wheat is at $6, that is a significant 
expense. Without a navigable river system, barging would not be 
an option. Farmers would have to substitute rail transportation 
or trucks to get their wheat to ports, which would be more 
expensive and less efficient. Having three different 
transportation options also keeps costs more competitive and 
reasonable.
    As price takers who compete in a global economy, we are 
very sensitive to increased costs to get our products to 
market. To move the same amount of wheat currently barged on 
the river system would require 137,000 semi-trucks or 23,900 
rail cars, leading to increased fuel consumption, increased 
emissions, and increased wear and tear on our transportation 
infrastructure. The current rail capacity in the Pacific 
Northwest is insufficient to meet current as well as projected 
wheat transportation needs, and barging remains the most 
efficient way to move wheat to export terminals.
    The river system is vital to the entire agricultural 
industry by providing multiple benefits in addition to 
navigation and transportation, including irrigation and flood 
control. Agriculture is the second largest contributor to our 
state's economy and represents a significant component of our 
agricultural industry nationally. Six percent of the Columbia 
River Basin's yearly runoff is used to irrigate about 7.8 
million acres of Northwest farmland. Greater irrigation 
efficiency in the Columbia River Basin has decreased water use 
by 10 to 25 percent per acre over the last decade. Several very 
large storage dams in the Columbia Basin also provide critical 
flood control benefits.
    In addition to providing businesses with affordable, 
reliable transportation to move our goods to market, the dams 
provide the region's largest source of carbon-free, renewable 
electricity. The majority of the Northwest's renewable energy 
comes from hydropower dams which not only is clean, reliable 
power, but affordable electricity that attracts business to our 
region.
    The Washington Association of Wheat Growers was proud to 
support H.R. 3144, legislation introduced by Representatives 
McMorris Rodgers and Newhouse, with other Pacific Northwest 
Members of Congress, to preserve the current operations plan 
for the eight Lower Snake and Lower Columbia River dams. The 
current court order forcing these dams to spill more water 
threatens the river power system and could be detrimental to 
the infrastructure of our dams and the reliability of 
navigation on our rivers. We also support Representatives 
Newhouse and McMorris Rodgers' appropriations provision to stop 
the spill order and thank them for their continued advocacy in 
support of the system.
    In closing, thank you for the opportunity to testify about 
the multiple benefits the Columbia-Snake River System provides 
to the agriculture sector. It literally is the economic 
lifeblood and way of life for the Pacific Northwest. Our region 
is blessed to have it. Thank you.

    [The prepared statement of Ms. Green follows:]
Prepared Statement of Marci Green, President, Washington Association of 
                             Wheat Growers
    Chairman Bishop, Ranking Member Grijalva, and the esteemed members 
of the House Natural Resources Committee, for the record my name is 
Marci Green. I am a sixth-generation farmer from Fairfield, Washington. 
My sons are seventh-generation wheat farmers. On our farm, we grow 
wheat, blue grass seed, dry peas, lentils and garbanzo beans.
    I am also the president of the Washington Association of Wheat 
Growers, a non-profit trade association that is comprised of 1,700 
members which includes wheat farming families and industry supporters.
    Thank you for the opportunity to testify about the importance of 
the Columbia Snake River System which provides significant 
transportation and navigation benefits to our region. The Columbia 
Snake River System is a 465-mile river highway that provides farmers 
and other producers as far as the Midwest access to international 
markets.
    The Columbia Snake River System is the top wheat export gateway in 
the United States, transporting over 50 percent of all U.S. wheat to 
markets overseas. Eleven states export through our rivers which moved 
over 12 million tons of wheat in 2016. Over 50 percent of Idaho's wheat 
is exported through the Columbia Snake River System. Over $500 million 
has been invested into Columbia River grain export terminals, and barge 
unloading capacity has been expanded by over 21 percent in expectation 
of increased sales in Asian markets. Besides grain, nearly $3 billion 
worth of commercial cargo is moved across the river system.
    As wheat farmers, we are dependent upon the barging system to 
transport our products to export. Barging is one of the lowest cost, 
most environmentally friendly modes of transportation we have to get 
our wheat to major grain elevators in Portland, which is the gateway to 
world markets. A typical four-barge tow moves the same amount of cargo 
as 140 rail cars or 538 trucks using just a fraction of the fuel.
    As a wheat farmer, transporting my crop to the market is a notable 
cost. Currently, I pay 80 cents a bushel to transport my wheat to 
ports. Even if wheat is at $6, that is a significant expense and 
clearly not my only one.
    Without a navigable river system, barging would not be an option. 
Farmers would have to substitute rail transportation or trucks to get 
their wheat to ports which would be more expensive and less efficient. 
Having three different transportation options also keeps transportation 
costs more competitive and reasonable.
    As price takers who compete in a global economy, we are very 
sensitive to increased costs to get our products to market. The price 
farmers ultimately pocket after factoring in all their expenses makes 
the ultimate difference whether they can stay in business.
    To move the same amount of wheat currently barged on the river 
system would require 137,000 semi-trucks or 23,900 railcars, leading to 
increased fuel consumption, increased emissions and increased wear and 
tear on our transportation infrastructure. The current rail capacity in 
the Pacific Northwest is insufficient to meet current as well as 
projected wheat transportation needs, and barging remains the most 
efficient way to move wheat to export terminals.
    The river system is vital to the entire agricultural industry by 
providing multiple benefits in addition to navigation and 
transportation, including irrigation and flood control. Agriculture is 
the second largest contributor to our state's economy and represents a 
significant component of our agricultural industry nationally. Six 
percent of the Columbia River Basin's yearly runoff is used to irrigate 
about 7.8 million acres of Northwest farmland. Greater irrigation 
efficiency in the Columbia River Basin has decreased water use by 10 to 
25 percent per acre over the last decade. Several very large storage 
dams in the Columbia Basin also provide critical flood control 
benefits.
    In addition to providing businesses with affordable, reliable 
transportation to move our goods to market, the dams provide the 
region's largest source of carbon-free, renewable electricity. The 
majority (90 percent) of the Northwest's renewable energy comes from 
hydropower dams which not only is clean, reliable power, but affordable 
electricity that attracts business to our region.
    In closing, thank you for the opportunity to testify about the 
multiple benefits the Columbia Snake River System plays to the 
agriculture sector. It literally is the economic lifeblood and way of 
life for the Pacific Northwest. Our region is blessed to have it.

                                 ______
                                 

    Mr. Lamborn. Thank you, Ms. Green.
    I want to thank all of you for your very informative and 
helpful testimony. We really appreciate that.

    We will now begin questions for the witnesses. We will have 
at least two rounds of questions. To allow all of our Members 
to participate and to ensure that we can hear from everybody, 
Members are limited to 5 minutes for their questions.
    I now recognize myself for 5 minutes.
    Ms. Flores, I have a question for you. And, Mr. James, I am 
going to ask you to tag on and also respond to it.
    There has been some discussion about how all of the 
stakeholders had previously agreed to a spill program that was 
optimized for salmon health, and getting the latest court order 
from an Oregon District Court judge, according to your 
testimony, has upset that balance. What are your views?
    Ms. Flores. Thank you, Chairman Lamborn. I am happy to 
respond.
    In 2014, a Biological Opinion was issued that included, 
among many other things, spill operations that were agreed to 
by states, the vast majority of the Northwest states and 
tribes, and those spill operations were developed in a 
collaborative process with those states and tribes. But what we 
have seen was the District Court rejected that Biological 
Opinion yet again and instead has been granting spill 
injunction orders brought by the plaintiffs, and I mentioned 
the one that was implemented this year, which was 24/7 spill to 
the maximum Gas Caps.
    So, we literally do have a situation now where, since the 
BiOp is being re-done, operations are kind of up in the air and 
we are waiting to see if another injunction is brought this 
year.
    Mr. Lamborn. Thank you.
    Mr. James?
    Mr. James. Sure. As a Federal agency, of course, we work 
with the other Federal agencies to follow the law, and the 
judge gave us the order, so we operate the river that way.
    While we certainly seek consensus on current and future 
spill operations, we also know that as an agency we are under 
risk of being uncompetitive in the future in terms of the cost 
of power that we sell. So, at the same time that we were 
implementing new spill orders, we have also been reducing our 
investments in fish and wildlife projects, and we have, in 
fact, been reducing our agency budget across the board to 
become more competitive, but that included reducing investments 
in fish and wildlife in order to meet these new spill orders.
    Mr. Lamborn. OK, thank you.
    And also for the two of you, Ms. Flores, you mentioned that 
the recent controversial spill order has actually led to an 
increase in the emission of carbon dioxide. Can you explain 
that in a little more detail, please?
    Ms. Flores. Yes, back to what spill is. When you are 
spilling water to move young fish more swiftly downstream in 
their downstream migration, you are obviously not generating 
power. So, because you are not generating carbon-free power, 
you have to replace it. And if you replace it today, you are 
replacing it with natural gas and perhaps other thermal 
resources, and natural gas and other thermal resources add to 
carbon emissions. So, if you are spilling, you are 
automatically increasing carbon emissions.
    Mr. Lamborn. And, Mr. James, as BPA Deputy Administrator, 
can you explain that in a little more detail?
    Mr. James. In order to continue to operate the system, 
loads and generation must always balance. You have to have as 
much coming off the system as you have coming on the system. 
So, the way that markets work is that you have to put the exact 
amount onto the system that you need. If we need to buy 
replacement power at certain times, we need to buy it when we 
need it. And as has been pointed out, that is likely to come in 
terms of cost and availability from a carbon-generating 
resource, most likely gas.
    Mr. Lamborn. And, specifically, where have some of those 
purchases come from in terms of power coming into the system 
from elsewhere?
    Mr. James. I can't say specifically what generators they 
are coming from, but I know that just in general they are 
likely to have come from gas.
    Mr. Lamborn. OK, I understand. Thank you.
    Mr. Newhouse, you are recognized for 5 minutes.
    Mr. Newhouse. Thank you, Mr. Chairman.
    I would also like to thank all of you for providing your 
testimony this morning. It was very informative, and it was 
also interesting to find out how quickly 5 minutes goes by.
    [Laughter.]
    Mr. Newhouse. First of all, Mr. James, thanks for being 
here. Last week, I was able to speak with your boss, Mr. 
Mainzer, the Administrator of the BPA. He told me that he was 
working with our governor, at least for the last several 
months, on coming up with ways to negotiate a compromise, so to 
speak, to manage the river that could actually increase or 
provide higher rates of dissolved gases by managing the higher 
spill rates.
    I just had a couple of questions about this whole thing. At 
least a lot of this centers around this increased spill. I like 
Ms. Flores' comparison to medicine: a little is good, maybe too 
much not so good. So, just a couple of quick questions.
    Isn't it true that some of our Federal agencies have stated 
that 110 percent saturation of total dissolved gases could have 
detrimental effects on fish?
    Mr. James. I would have to defer that to the Environmental 
Protection Agency, which sets those gas standards and which, of 
course, the states then have to abide by. The states, as you 
know, then implement those standards and can, in fact, grant 
waivers on those gas levels. That is what is being considered.
    Mr. Newhouse. It is also true that the current spill order 
mandated by a judge has raised those levels up to 120 percent, 
correct?
    Mr. James. Yes.
    Mr. Newhouse. Your boss stated to me that our governor is 
now advocating to raise those levels even higher, up to 125 
percent. And like you said, every state has their own water 
quality standards to determine what the safe level is. I fully 
understand the pressure the governor is under, as well as BPA, 
but certainly the recent news reports of the orcas and the 
challenges that they are finding for food right now, I 
certainly find it incredible that we are calling for more 
spills supposedly to help the fish, and yet that places what 
seems to be a high level, a toxic level of gas in the water. 
So, at the same time we are trying to help one species, we are 
harming another, and this just doesn't seem to be based on 
sound science to me.
    So, this is, to me, the crux of the question here. Ms. 
Flores, do you have any comments on all of this? If the level 
of gas at 110 percent is dangerous, tell me more about 125 
percent.
    Ms. Flores. I can shed a little bit more light on that. 
Unfortunately, I didn't do it when I was speaking. It is in my 
testimony. But the Washington Department of Ecology for dams in 
the state of Washington sets TDG levels, total dissolved gas 
levels, at 110 percent gas saturation to be protective of 
salmon and other aquatic species--lamprey, sturgeon, all the 
aquatic species in the rivers.
    The Federal system is somewhat unique in that the Army 
Corps gets waivers from those standards of 110 to be able to 
spill up to 120. The Federal hydro system, with the exception 
of the mid-seas, which have temporary waivers to exceed the 
standards now and again--but the Federal hydro system is the 
only dam system that is actually spilling as much as it does.
    So, with respect to the discussions, there are discussions 
going on, as I understand it, with Governor Inslee and 
Bonneville, and we do know that part of the discussions are 
intended to perhaps be able to spill less than we do now, but 
then the exchange would be maybe spilling at higher levels. We 
are concerned about going up to the 125 because we are 
concerned about the science, as you heard me discuss, and what 
the impacts might be on fish. We want to make sure that the 
ratepayers that are spending hundreds of millions of dollars 
every year don't undermine those investments by unintended 
consequences of spilling to an even higher level.
    Mr. Newhouse. Thank you.
    I know my time is almost up, Mr. Chairman, but I just 
wanted to say that I was at McNary Dam this spring, and the 
operators at the dam, and that was right after the spill order 
began, were already seeing fish with symptoms of gas poisoning 
at that point, and that apparently was at the 120 level.
    Thank you, Mr. Chairman.
    Mr. Lamborn. Thank you.
    Representative McMorris Rodgers.
    Mrs. McMorris Rodgers. Thank you, Chairman.
    I, too, want to thank everyone for being here and sharing 
your testimony with the Committee. It is very helpful.
    I have a few questions of just about everybody, but we will 
get started with Ms. Flores.
    I wanted to go to the example of the Elwha Dam that was 
authorized by Congress for removal in 1992. It wasn't until 
September 2011 that the dam actually came down. As we think 
about this call to remove the Lower Snake River dams for the 
purpose of saving the orca or somehow benefiting salmon--I was 
recently in Walla Walla, sat down with the Army Corps again and 
they said they don't believe it is going to benefit, it 
wouldn't have a positive impact on salmon returns beyond what 
we are doing today--I just wanted you to shed some light on how 
long you think it would actually take to remove the dams and 
how much it would cost, and what is your sense as far as how we 
replace the energy from those dams?
    Ms. Flores. Thank you, Congresswoman McMorris Rodgers.
    You are obviously correct, the removal of the Elwha Dam 
took about 25 years, and I would note that Elwha Dam is in no 
way, shape, or form similar to the Snake River dams. Those dams 
provided very, very little power output, which went to a local 
paper mill. There is no navigation. There is no trade. There is 
no commerce. There just is no comparison. And even so, removal 
of those dams took congressional authorization, and it took 25 
years, and appropriations.
    I find it very discouraging and sad that people are again, 
when they talk about removing the Snake dam, saying we can do 
this without congressional authorization, we can get it done by 
the end of this year. Truthfully, there are people submitting 
comments into the orca record and so on and so forth saying we 
can get this done swiftly. That is just not true.
    Obviously, Congress has been appropriating dollars to 
maintain these Snake dams and the other dams in the Federal 
system for years, decades. I don't see that coming to a stop. I 
do believe that members of the delegation fully appreciate the 
value of the Snake dams. So, to get an authorization and 
appropriations I think would take decades. I think that whole 
argument that it be done swiftly just undermines efforts to try 
to take reasonable measures to help endangered salmon in the 
Northwest.
    With respect to replacement power, you will hear that we 
can easily and swiftly replace the output of the Snake dams 
with wind and solar resources, and that is just not true right 
now. We don't have the ability to store those resources on a 
large scale. We may, but we don't right now, and it may be 
decades before we have the ability to store those resources.
    So, again, right now, should those dams be removed, it 
would likely be with natural gas replacement.
    Mrs. McMorris Rodgers. Very good. Thank you.
    I would like to move to Dan James, Deputy Administrator. 
Would you also give me your thoughts on how easy it would be to 
replace the energy that is generated at the Lower Snake River 
dams with resources like wind and solar? Do you think that is 
possible? What do you think is the most likely replacement?
    Mr. James. Sure. I think that currently we don't believe 
that it is possible on a 24/7 basis because the system has to 
operate all the time, and the system always needs to balance. 
So, the question is, how do you meet the needs at any given 
time, the hottest day of the year, the coldest day of the year?
    Clearly, what would be the energy source that would most 
likely replace these dams? If we are talking about cost and 
dispatchability--in other words, what could be there all the 
time--the answer is most likely natural gas. On the other hand, 
does the system--we have lots of generation onto the system at 
given times. The question is when do you have capacity? How do 
you actually keep the lights on? How do you meet needs 24/7? 
So, capacity is one of the issues that we must deal with.
    Mrs. McMorris Rodgers. Do you believe that we could see 
blackouts?
    Mr. James. I would have to dive into that question a little 
more, and I would be happy to give you more of a substantive 
answer.
    Mrs. McMorris Rodgers. OK. Thank you.
    I will yield back.
    Mr. Lamborn. Thank you. We will have another round of 
questions here.
    Ms. Flores, I am going to ask you one question, and then I 
am going to broaden it to some of you who haven't responded to 
a question yet.
    We had a bill recently in our Subcommittee and in the Full 
House on sea lion predation. To me, it was a no-brainer. If a 
sea lion is killing literally thousands of salmon, sometimes 
just biting a chunk out of it and then letting it go, or 
devouring the whole thing, when you balance that--and sea lions 
are not an endangered or threatened species, but they are 
protected under the Marine Mammal Act, but the salmon are 
threatened and endangered. So, it is pitting one against the 
other, which is unfortunate.
    We had a bill to say if a sea lion cannot be removed 
because if you do that and it comes back, you don't solve the 
problem, that in some cases, some extreme cases, lethal force 
could be authorized. But we had people, even though they 
professed to support and love the salmon, who voted against 
that. I did not understand how, if you want to preserve the 
salmon, you wouldn't want to preserve them in that case as 
well. But we had a whole number--I don't know, 100, 150 people 
in Congress--who did not support that legislation that 
Representative Jamie Herrera Beutler, to her credit, did 
introduce, and we did pass it from the House to the Senate.
    What is your comment on that?
    Ms. Flores. Well, I think it is understandable that it is 
very challenging and difficult for people to wrap their brains 
around the need to lethally remove sea lions. But if you look 
at the information and the data, it is overwhelming, and it is 
not just in Astoria or on the Columbia. It is up in Puget 
Sound. I am hearing that the sea lions up there are taking as 
much or more than commercial sport and tribal fishing combined 
of our endangered salmon. We know on the Willamette River that 
there is a 90 percent chance that steelhead will go extinct due 
to sea lion predation.
    So, I can understand from an emotional perspective, but at 
the end of the day we need to take tough measures, and we are 
really happy and very supportive of the sea lion bill because 
we think that is one of those tough measures that needs to be 
taken.
    Mr. Lamborn. I was just amazed. Some people say that they 
want to protect the salmon, but when it came time to vote to 
protect the salmon, they abandoned the salmon, in my opinion.
    Doc Hastings and Kris Johnson, I want to ask you about 
irrigation. One of the benefits of the Lower Snake River dams 
is the benefit to agriculture through irrigation. What would 
happen to the economy of this part of the country, Washington 
or even other neighboring states, if those dams were to go 
away?
    Mr. Hastings. Let me first respond to the sea lion question 
here. I remember when I was in Congress, I toured Bonneville 
Dam and saw the sea lions, and the first thing to remember is 
that the sea lions in question at the Bonneville Dam at that 
time were not indigenous. They are California sea lions, and 
because they proliferated so much in California because they 
are protected, they had to go someplace to find their food.
    So, these are not indigenous sea lions on the Columbia 
River, and that needs to be taken into account.
    Let me broaden your question by simply saying that the 
Snake River, I forget how many acres the Snake River irrigates, 
but it is quite a bit. An analogy to that would be the 
reservoir behind Grand Coulee Dam, Lake Roosevelt. That 
irrigates 500,000-plus acres.
    A case in point: without irrigation, we wouldn't have an 
agriculture economy of any sort. Last year, our average 
rainfall I believe was around 7 inches, which is lower than 
normal here in this part of the country. I think to date, the 
average rainfall to date is less than 4 inches here in the Tri-
Cities, and I could be off by a half-inch. But still, the point 
is you have to have water in order to irrigate our diverse 
agriculture economy. If you take that away, that would have a 
huge, huge impact on our economy, no question about it.
    Mr. Lamborn. Mr. Johnson?
    Mr. Johnson. I think a couple of things to have some 
perspective on. When the dams were first opened in 1962, the 
state had about 2.9 million population. Today, it is 7.4 
million. The mid-Columbia, where you are sitting, had 50,000 
residents. Today, it has 300,000 residents. Those 300,000 
residents in this region help produce 600 million pounds of 
French fries to go across the country and across the world, 
right? So, that is how transformative base load power has been 
to this region and to this state's economy.
    Mr. Lamborn. Thank you.

    Representative Newhouse.
    Mr. Newhouse. I was just told recently that there was a 
meeting last week in Seattle, that the gist of the meeting was 
that there is a direct correlation between the dams and the 
plight that the orcas find themselves in at Puget Sound. I was 
going to ask Ms. Flores, could you speak to the nature of the 
Columbia River's fish species as being a source for food for 
the orcas? I think you brought that up in your testimony. My 
understanding is that they play a very small role, but I want 
to be sure about that.
    Ms. Flores. Yes, thank you. Again, back to the science. 
According to NOAA Science Center analysis, the Columbia and 
Snake chinook stocks in particular do provide food for orcas, 
but they are just one of many, many sources. And contrary to 
what you may be hearing, they are actually a bright spot in 
terms of providing chinook salmon for orca consumption.
    Again, you have to go back and look at the actual data and 
information. Do salmon from Columbia and Snake provide a food 
source? Absolutely. But they are one of many. Right now in the 
summer, 90 percent of the orcas in Puget Sound, their food 
source is salmon from the Fraser River.
    Mr. Newhouse. Ninety percent?
    Ms. Flores. Ninety percent in the summer. So, yes, they do 
provide a source of prey, but, in fact, they are kind of a 
bright spot in terms of providing salmon for orca consumption.
    Mr. Newhouse. So, just to prove that these hearings, people 
do look at the Congressional Record, I know that 6 years ago 
when Chairman Hastings had a field hearing on similar issues, 
Mr. Heffling, both you and Mr. Spain--is that how you pronounce 
your name?--were in attendance at that hearing, and you were 
both asked whether it was a good thing to have a judge 
dictating the management of the river system. You both answered 
no, and I think in your testimony this morning, Mr. Spain, you 
talked about a collaborative approach.
    What I find strange is that the years of painstaking 
negotiations that were conducted by both the Bush and the Obama 
administrations in coming up with the Biological Opinion which 
was worked on by scientists, engineers, Northwest tribes, all 
the stakeholders involved, doesn't equate to such an effort of 
collaboration.
    So, I guess I would ask your opinion, Mr. Heffling. Do you 
think it does? Do you think it does demonstrate a concerted 
effort to manage the system in the best way possible for both 
fish and hydropower and all the other uses of the river?
    Mr. Heffling. Of course we support the BiOp, and the BiOp 
works. It has been working for many years. I mean, we were 
returning to record numbers of returning fish. The additional 
spill ordered by the judge, it makes me wonder what the purpose 
of the outside interest groups are, if they are really trying 
to recover salmon or if they want to make it worse on them so 
they have a reason to remove the dams.
    For one thing, all the water spilled, fish passing through 
those spill gates have less chance to survive than when they 
are collected at the projects and transferred downriver by 
barge, five times more likely to survive.
    So, I have to wonder why additional spill would do any 
good, not to mention the additional dissolved gas. I mean, for 
those of us who work at the dams, it is a no-brainer. You see 
all the spill and you look out there and downstream of the 
spill gates you see all these birds which are feasting on 
smelts that have been killed by dissolved gas or just the 
trauma of passing through spill gates.
    Mr. Newhouse. And real quickly--I know my time is short. 
Mr. Rich, I think it bears more focus that you talked about the 
number of trucks it would take to replace the barges that move 
freight up and down the river. Could you expand on that for 
just a second?
    Mr. Rich. Sure. Of course, it will depend a little bit on 
the size of the truck. But your basic semi, where you are 26 to 
32 tons, with a 3,600-ton barge, I was looking at some numbers 
this morning, you are between 120,000 and 160,000 trucks. Now, 
the reason I am saying 120 to 160 is because you have varying 
volumes of wheat that are produced each year. But rather than 
just the number of trucks, we think of the drivers, we think of 
all that it takes to produce those trucks, and we get back to 
the ton-mile-per-gallon of trucking.
    Trucking is very efficient. I mentioned earlier there are 
149 miles to move a ton of cargo on a gallon of diesel. That 
has come up tremendously in the last several years. Again, in 
marine transportation, 576. When we just look at the fuel 
consumed itself, adding the trucks to the freeways at a minimum 
of 120,000, I actually can't imagine what that would do to 
congestion.
    When you say the word ``congestion,'' that means different 
things to different people, but at some point you end up with 
gridlock. Is it a good goal to have 120,000 semis transiting 
from the Columbia-Snake River Basin to the seven export 
elevators in the Portland/Long View/Vancouver/Kalama market? I 
cannot believe that that would be in the best interest of 
anyone who is interested in supporting our environment.
    Mr. Newhouse. Thank you.
    I yield back, Mr. Chairman.
    Mr. Lamborn. Representative McMorris Rodgers.
    Mrs. McMorris Rodgers. Thank you, Mr. Chairman.
    I would like to go back to BPA and spend a little more time 
on the Biological Opinion and the work that was done to put 
that together in 2014. The legislation that we introduced that 
is known as H.R. 3144 would have preserved the current 
Biological Opinion until the current NEPA process could be 
finalized.
    I would like you to address some of the steps the region 
took to come up with that Biological Opinion and speak to the 
support of the stakeholders.
    Mr. James. Sure. It was a collaborative process with 
elements that were reviewed by a number of constituencies and 
independent science advisors. It was supported by most, if not 
all, constituencies, including most of the states and most of 
the tribes, to develop the 2014 Biological Opinion.
    Mrs. McMorris Rodgers. Does BPA support the legislation?
    Mr. James. I can't say I support the bill until the 
Administration takes a position. BPA and the other action 
agencies do support concepts of the bill. We believe that there 
is a thorough need to analyze the alternatives that could be 
beneficial to threatened and endangered fish. We are standing 
behind and are directly involved in helping the Corps and the 
Bureau complete an EIS, which is part of the Columbia River 
System operation, which will tell us a lot about the future of 
the Columbia River System. The bill would provide us the time 
necessary to develop a scientifically sound interim, 
experimental spring operation and continue to analyze it 
through the CRSO.
    Mrs. McMorris Rodgers. Would you speak to the path forward? 
Because right now, we have a pretty significant dispute over 
the science, and the science that was used--you spoke to the 
independent science advisors, whether it is the Corps, BPA, 
NOAA--the science is suggesting that this additional spill is 
not benefiting salmon, and yet that argument is out there and 
we are being forced by a judge in Portland now to test this 
theory.
    I know that if BPA is to cut a deal with the states of 
Oregon, Washington, and others, to try to avoid further 
litigation, I guess I would like you to speak to the 
possibility of us being able to come together as a region to 
reach some kind of an agreement to move forward that will avoid 
litigation moving forward.
    Mr. James. Administrator Mainzer and others are deeply 
committed to a collaborative regional process that intersects 
with Columbia River System operation that we are conducting 
with the other agencies. I truly believe that for there to be 
consensus, we will need a very robust collaborative effort 
amongst the agencies and the sovereigns, the tribes, the 
states, and others.
    So, while we negotiate an interim spill operation 
potentially, there is no agreement on what that might look like 
because there are unanswered scientific, operational, and 
economic questions as a result of that.
    We also are committed to a robust EIS process with the 
other agencies. That is a public process that many people in 
this room are involved with.
    Mrs. McMorris Rodgers. Glen Spain, could you speak to the 
possibility of us being able to negotiate this?
    Mr. Spain. There are already some collaborative efforts 
that the Columbia Basin Partnership, which I am a member in, 
and several other people have representatives there as well. 
The Columbia Basin Partnership is an ongoing process to try to 
work around this and envision a 100-year restoration effort, 
what do we want the basin to look like after we fix it, what 
will it look like fixed. So, there are those efforts.
    I want to correct one thing that I think needs correction, 
and that is the judge threw out the 2014 BiOp because it was 
based on an illegal standard. But also, the science continually 
moves forward. We had no anticipation that spill would be as 
useful or as effective a tool as it turns out the recent 
studies have shown that it is. That was not factored into the 
original BiOp. That will be factored into the next BiOp.
    Mrs. McMorris Rodgers. Why do you think the NOAA science, 
the Corps science does not back that up?
    Mr. Spain. Well, actually, it does, and I would refer you 
to Note 20 and 21 of the two recent studies where it is fairly 
conclusive, with broad scientific consensus, including the 
agencies, that spill is an effective mitigation measure. That 
was not known back then. Keep in mind that the----
    Mrs. McMorris Rodgers. Are you speaking to the additional 
spill? Because we are not saying go backwards, but we are 
saying let's make decisions based upon science and what is best 
for the fish moving forward.
    Mr. Spain. There we very much agree, but the old BiOp was 
based on old science. Science moves forward. We need to 
incorporate, and the judge required us to incorporate the best 
available science. That is what we are working on.
    Mrs. McMorris Rodgers. OK, thank you.
    Mr. Lamborn. OK. We are going to start our last and 
concluding round of questions. I will begin.
    I want to thank Representative Newhouse. This morning you 
helped me, you led a tour of the Ice Harbor Dam east of the 
city here, and that was very informative. The Army Corps of 
Engineers is there. The dam administrator and other people were 
there. We heard a lot about the science and engineering that 
goes into not just the dam itself but the efforts to make sure 
that the fish going upstream and the juvenile fish going 
downstream have as easy a road as possible. So, it was very 
informative and fascinating, and was very helpful to this whole 
topic.
    I want to ask Ms. Green a question, and, Mr. Rich, feel 
free to jump in as well. Without dams on the Lower Snake River, 
transportation would be devastated. There would be no barge 
traffic. What does that do for the agricultural producers, and 
are there some areas of production that don't even have access 
to other transportation at this point in time?
    Ms. Green. I would say there are areas that don't have 
access to rail transportation.
    Mr. Lamborn. OK.
    Ms. Green. I think we all have access to trucks. But as we 
have stated, the increase in the amount of trucks it would take 
to transport the wheat that is currently transported on barges 
would probably be devastating to our infrastructure. I don't 
believe we have the highway system to support that.
    And as far as a farmer, as a producer, economically, it 
would significantly increase our cost of production, our cost 
to transport our crop to the market. Having the three different 
modes of transportation, which is barge, rail, and truck, they 
tend to keep each other in check. We are not subject to a 
monopoly. So, I am sure that our transportation costs would 
significantly increase. We already operate on very tight 
margins, so that would be devastating.
    Mr. Lamborn. OK. Thank you.
    Mr. Rich, real briefly, and then I am going to finish up 
with someone else.
    Mr. Rich. The barge industry, when I take a look at this, I 
see the 13 elevators between the Tri-Cities and Lewiston, and 
if those elevators had another way to go that made more sense 
for them economically, they would take it. I look back at the 
extended lot closure that occurred here on this river, the 
first one back in 2010-2011, there was quite a concern that the 
barge wouldn't be able to get to market. Through a series of 
efforts to educate the wheat availability, the long and short 
of it is that over the 3-month period that there was not 
barging available, that wheat came down the river afterwards. 
It was rather amazing to our industry to see that when given 
the choice between paying higher rail or incredibly high truck 
prices--and, by the way, this isn't a comment about high prices 
with trucking, it is just a cost of transport. So, to be able 
to see that the people who had a choice for 3 months to choose 
to hold their product and ship it by barge shows how incredibly 
important it is to those shippers. And those shippers aren't 
just companies, those are people and farmers.
    Mr. Lamborn. Thank you.
    My last question is for Ms. Flores. One of the phrases that 
caught my attention this morning is from one of the 
administrators of the dam. He said that their goal was to make 
the dams transparent to the fish so that going downstream, as 
well as coming upstream, it was as if the dam wasn't there. In 
other words, to make their course both ways just as if it was 
natural conditions in terms of survivability. I think you 
pointed out it is not 100 percent, even in the wild it isn't 
100 percent.
    Was the old agreement better to achieve that goal, which I 
think is a goal we all share, than the new spill order from the 
Oregon judge?
    Ms. Flores. In my opinion, yes. And the reason for that is, 
again, back to more spill isn't always better. One of the 
things that more spill also does is it pulls young fish 
migrating downstream away from the fish slides that have been 
installed at the dams, or their equivalent, and we have Army 
Corps data that show the highest route of passage at the dams 
is over those fish slides. So, when you spill more, you are 
literally pulling the fish away from the highest route of 
passage.
    When the dams were overhauled and $2 billion was spent on 
fish slides and other bypass means, they actually worked. They 
are providing very high survivals on the level, as stated by 
Dr. Kareiva, as undammed rivers.
    Mr. Lamborn. Thank you. It was kind of amazing to see the 
movable apparatus. What was that called?
    Ms. Flores. Movable spillway wares.
    Mr. Lamborn. Yes, movable spillway wares, a marvelous piece 
of technology that helped the fish survive going downstream in 
higher percentages, which I think is a goal that we all 
advocate for.
    Representative Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman.
    I have a letter here from the Tri-Cities Legislative 
Council, writing with their support for H.R. 3144, as well as 
for the passage of some of the critical measures to return 
stability and certainty to our river power system. I just want 
you to know the Legislative Council is made up of local 
businesses and Chambers of Commerce, public utility districts, 
and economic development organizations.
    Mr. Chairman, I would ask unanimous consent to submit this 
for the record.
    Mr. Lamborn. Without objection, so ordered.
    Mr. Newhouse. Thank you.
    Just a couple more questions. And, again, thank you to all 
the panelists for being here today.
    Mr. James, I have worked very hard in my short time in 
Congress to support the Bonneville Power Administration and 
public power as a whole. Mr. Mainzer testified in front of this 
very Committee in our Nation's capital that H.R. 3144, the 
legislation introduced by Representative McMorris Rodgers and I 
to provide certainty and reliability for the Federal river 
power system, would help BPA better manage the transmission 
system in a more effective and constructive manner. I am sure 
you know word for word his testimony. Would you agree with that 
testimony?
    Mr. James. Yes.
    Mr. Newhouse. OK. Let me just share with you that while 
working on your behalf, I need your help as well. You have to 
be an advocate for yourself by helping to push for this 
legislation to be signed into law. Frankly, I have not always 
found BPA's support for this legislation to be shared as 
strongly and directly with those who need to hear it most. You 
guys are the experts, and people need to hear from you.
    So, just a simple question, Mr. James--can I count on you 
to be a more vocal, steadfast partner in this effort?
    Mr. James. We will absolutely provide all the information 
that is asked of us, absolutely.
    Mr. Newhouse. Thank you, appreciate that. We desperately 
need you.
    Just one other question, Mr. Heffling. Your knowledge and 
expertise is a testament to over 30 years of experience in 
working this river system. It was more than 30, wasn't it? 
Thirty-seven? Did I hear that?
    Mr. Heffling. Thirty-three.
    Mr. Newhouse. Thirty-three. Don't want to age you too soon.
    My humble opinion is that one judge in Portland doesn't 
know how to manage this river system better than the experts 
and the professionals, the workforce who work day and night to 
keep the lights on for the entire Pacific Northwest. Did you 
have any thoughts on that?
    Mr. Heffling. Just that a judge or outside interests cannot 
know how all of the improvements that have been put into place 
work and how they actually benefit fish. Those of us that are 
there every day operate this equipment, maintain this 
equipment. We see the results. We see how it works. We see how 
the fish pass.
    I would just say we see it work, so I would think we have a 
better idea of what works, what we should be doing, and besides 
that we have the fish passage plan that we always follow when 
doing anything, what units we run, what load we run, what spill 
gates we operate. It is all part of the fish passage plan, and 
when we move outside of that, I don't see how anybody can 
determine what is working if you are not using an established 
plan and finding out what the results of that plan are.
    Mr. Newhouse. Yes. It is a complex system, to say the 
least. Thank you very much, and thank you for your years of 
service in that effort.
    With that, Mr. Chairman, I will yield back the balance of 
my time.
    Mr. Lamborn. Thank you.
    We will have the final questions from Representative 
McMorris Rodgers.
    Mrs. McMorris Rodgers. Thank you, Mr. Chairman. I think in 
my final question I would just like to reflect a little bit on 
the importance of that established plan. Since the salmon were 
first listed, and we have reflected this morning a lot on the 
Columbia-Snake River System and all that it means to us, the 
lifeblood of our economy. It is the foundation of our economy, 
whether it is agricultural, manufacturing, technology. We have 
reflected on billions of dollars of investment in research and 
in technology to improve the fish runs. We have highlighted 
that fish runs are improving across the board, and that we have 
actually seen fish runs that exceed when the dams were actually 
built.
    Why I believe it is so important that we get the Biological 
Opinion in place is the certainty that we need. For me, the 
question is who is going to be the one putting this plan in 
place? We have been in the court now for a couple of decades 
trying to get a plan in place, and we continue to run up 
against a judge who thinks that they know better as far as how 
to manage the Columbia-Snake River System.
    I want to start with Ms. Flores and ask you--and I want to 
ask others too, as time allows. Would you speak to the 
financial impact on BPA that is passed on to the Pacific 
Northwest ratepayers due to the litigation, and what is the 
potential risk if litigation and unpredictable court rulings--
what is the impact of that continued litigation on our 
hydropower generation and BPA's solvency?
    Ms. Flores. Yes. As I noted in my comments, Bonneville, in 
part, fish and wildlife is a prime driver of recent Bonneville 
rate increases. Over the last few years, they have had to 
increase their rates by 30 percent. There was a 5.4 percent 
rate increase for 2018-2019, and then we had the spill 
surcharge. And all of this is adding to Bonneville's current 
financial woes.
    What I would say is of even more concern is the possibility 
for future rate increases. Can you imagine not knowing how the 
Federal hydro system is going to be run next year? That is 
amazing to me. We don't know exactly how much more that might 
cost, if anything, but we are very concerned about the 
prospects for future rate increases, which then contribute more 
to Bonneville's financial woes.
    Contracts with the customers expire in 2028. Customers that 
purchase all or most of their power from Bonneville, they will 
be looking for options many years before that, and they want 
Bonneville to be solid and stable and a preferred choice. But 
they are obligated, if there are market choices, to go out to 
the market and get the most cost-effective power they can for 
their customers.
    So, I think we are all in agreement that we want Bonneville 
to stay healthy and stable, but where this fish issue is going 
with respect to the BiOp and litigation, we are very, very 
concerned about how that will translate into future rate 
increases and what that means for Bonneville.
    Mrs. McMorris Rodgers. Mr. Bonneville, do you want to 
address this?
    [Laughter.]
    Mr. James. What Ms. Flores raised, we describe as our 
efforts manifested in the strategic plan that we released in 
January of 2018. The thesis statement is, for BPA to continue 
to meet its public purposes, it must be a commercially viable 
business. That means that we have to have customers. And that 
means when our 20-year contracts expire in 2028, that our 
desire is to be fully subscribed.
    But, as Ms. Flores stated, our customers will have choices, 
so we are working very hard to drive our costs down. I 
mentioned that one of the things that we have done is to cut 
agency spending across the board, including in fish and 
wildlife spending, to meet our obligations. One of those 
obligations was additional spill.
    So, back to something Chairman Lamborn asked me earlier, 
where does that replacement power come from? That manifests 
itself both in revenue foregone, power that you cannot generate 
and cannot sell, and it also means replacement power. That ends 
up being a cost. I said it could come from natural gas, that 
replacement power could come from any variety of places. It 
could come from wind or solar or other hydro, other renewables.
    But at the end of the day, we know that it drives our 
costs. So, while we drive our costs down across the agency, we 
have to carefully manage our fish and wildlife portfolio.
    Mr. Lamborn. Coal and nuclear, too.
    Mr. James. I'm sorry?
    Mr. Lamborn. Coal and nuclear, too.
    Mr. James. Oh, exactly, it could come from any number of 
sources. BPA also integrates the power from the Columbia 
generating station, which is just a few miles from here in the 
4th Congressional District.
    So, you are right, it could come from any number of 
sources, but it is a cost driver for us.
    While we manage our costs across the board, we have cut 
departments. We are selling an airplane. We have done things 
across the board to do exactly what our customers are doing, 
which is to tighten their belts. We must also do that with fish 
and wildlife, which means that when we are not able to sell 
electricity, or when we have to buy it, then that comes at a 
cost. We have to manage that like we do everything else.
    Mrs. McMorris Rodgers. Thank you. I yield back.
    Mr. Lamborn. OK. That concludes our questions.
    I am going to ask unanimous consent to enter three reports 
into the record: something from the Washington Policy Center, a 
report from NOAA, and an article from the Seattle Times. These 
talk about the adverse impacts of spill, the relationship 
between dams and orcas, and the cost of replacing power with 
wind and solar.
    Without any objection, so ordered.
    Mr. Spain. Mr. Chairman, something came to my attention. 
There was a letter submitted by the American Sport Fishing 
Association. I would like that entered into the record too, if 
I may.
    Mr. Lamborn. OK. Without any objection, so ordered.
    Now I am going to ask Representative Newhouse to make any 
concluding remarks, and then I am going to wrap things up.
    Mr. Newhouse. Thank you, Chairman Lamborn. Thank you, 
Congresswoman McMorris Rodgers, both of you, for being here 
today.
    I am going to also thank our witnesses for providing their 
expert testimony, helping us to better understand this complex 
system we have here called the Snake and Columbia Rivers. I 
think this has been a truly valuable opportunity to help 
analyze some of the benefits that we have that we receive from 
the power system.
    I think there was something I picked up on in Ms. Flores' 
comments, and I can't pronounce his name, Dr. Peter----
    Ms. Flores. Kareiva.
    Mr. Newhouse [continuing]. Kareiva. If you didn't catch his 
credentials, he is a Fellow of the American Academy of Arts and 
Sciences and the National Academy of Sciences. He is a former 
Chief Scientist at the Nature Conservancy. He is the current 
Director of UCLA's Institute of the Environment and 
Sustainability. And perhaps most pertinent, he is the former 
Director of Conservation of Biology for NOAA at their Northwest 
Fisheries Science Center, where he analyzed the Northwest 
endangered salmon, and he wrote this just last year, and I 
think this is what you referenced, Ms. Flores.
    I quote, ``It is not certain that dams now cause higher 
mortality than would arise in a free-flowing river. The problem 
is that a complex species and river management issue has been 
reduced to a simple symbolic battle, a battle involving the 
choice between evil dams and the certain loss of an iconic 
species. It has become clear that salmon conservation is being 
used as a means to an end, as opposed to an end of its own 
accord.'' I end the quote there.
    While some interests will continue to try to claim that we 
must pick one or the other, fish or dams, we know that that 
does not have to be the case. We can indeed balance economic 
prosperity as well as the environmental stewardship. Fish and 
dams can co-exist. We see that happening every day. The Snake 
and Columbia River system is a great example of that.
    So, I have an ask. I am encouraging all the members of this 
community to use their voices to be heard. I will continue to 
implore our Senators Cantwell and Murray to help stop the spill 
orders, to protect and to save our dams, and to recognize the 
magnitude of the benefits that are received by both rural and 
urban communities on both sides of the Cascade Mountains that 
we get from our rivers. They really do provide for our way of 
life, and I would ask you to do the same thing.
    I want to thank all of you, our witnesses, everyone in the 
audience that has been here this whole morning. I certainly 
want to thank the Pasco City Council for allowing us to utilize 
this beautiful facility. Thank you, Doc, for letting us be in 
your old gymnasium. It has been a pleasure to be here, and I 
truly express my appreciation to you, Chairman Lamborn, for 
being here. And as always, to my good colleague and friend, 
Cathy McMorris Rodgers, thank you for being here as well.
    With that, Mr. Chairman, I yield back.
    Mr. Lamborn. OK. Thank you for your hospitality and 
leadership.
    Cathy, I appreciate what you offered as well.
    Doc, did you start representing Congress in this area 
before the dams were built?
    [Laughter.]
    Mr. Lamborn. I know it was a long, long, long time ago, a 
long time ago.
    Mr. Hastings. No, but the arguments that you hear today are 
exactly the same as they were 25 years ago.
    [Laughter.]
    Mr. Lamborn. OK. Well, I thank all the witnesses for their 
testimony, and I want to thank the audience for your interest. 
Please submit any last comments that you might have.
    If there is no further business, the Committee stands 
adjourned.

    [Whereupon, at 12:11 p.m., the Committee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Lamborn Submissions

    --  Article titled ``Errors and Arbitrary Assumptions 
            Plague Study on Replacing Energy From Snake River 
            Dams,'' Washington Policy Center, by Todd Myers, 
            dated April 6, 2018.

    --  NOAA Handout titled ``Southern Resident Killer Whales 
            and Snake River Dams,'' 2016.

    --  Article titled ``Dam spills extra water; tons of fish 
            are killed,'' Seattle Times, by Craig Welch, dated 
            May 26, 2011.

    --  Public Comments Submitted at the Field Hearing.

Rep. Grijalva Submissions

    --  Statement for the Record from Shoshone-Bannock Tribe, 
            by Nathan Small, Chairman, dated September 19, 
            2018.

    --  Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva from the American Sportfishing 
            Association, dated September 7, 2018.

    --  Letter addressed to Members of the Committee from Norm 
            Cimon, InfoSynchronicity LLC, dated September 8, 
            2018.

Rep. Newhouse Submission

    --  Letter addressed to Reps. McMorris Rodgers, Herrera 
            Beutler, and Newhouse supporting H.R. 3144 from 
            Tri-Cities Legislative Council dated September 5, 
            2018.

Mr. Flores Submission

    --  Article titled ``Fealty to symbolism is no way to save 
            salmon,'' Oxford University Press, by Peter Kareiva 
            and Valerie Carranza, 2018.

Mr. Hastings Submissions

    --  Article titled ``Supportive breeding boosts natural 
            population abundance with minimal negative impacts 
            on fitness of a wild population of Chinook 
            salmon,'' Journal of Molecular Ecology, by Maureen 
            A. Hess, et al. 2012.

    --  Proposed National Marine Fisheries Service Listing 
            Policy for Hatchery Fish Under the Endangered 
            Species Act, dated February 2003.

                                 <all>
</pre></body></html>
